<html>
<title> - LESSONS LEARNED: EPA'S INVESTIGATIONS OF HYDRAULIC FRACTURING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 LESSONS LEARNED: EPA'S INVESTIGATIONS
                        OF HYDRAULIC FRACTURING

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY &
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 24, 2013

                               __________

                           Serial No. 113-42

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
82-221                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
JIM BRIDENSTINE, Oklahoma            SUZANNE BONAMICI, Oregon
F. JAMES SENSENBRENNER, JR.,         JULIA BROWNLEY, California
    Wisconsin                        DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         MARK TAKANO, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
PAUL C. BROUN, Georgia               EDDIE BERNICE JOHNSON, Texas
RANDY WEBER, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             MARK TAKANO, California
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                             July 24, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    11

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

Statement by Representative Cynthia Lummis, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    15

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    16
    Written Statement............................................    17

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    19
    Written Statement............................................    20

                               Witnesses:

Dr. Fred Hauchman, Director, Office of Science Policy, Office of 
  Research and Development, Environmental Protection Agency
    Oral Statement...............................................    21
    Written Statement............................................    24

Dr. David A. Dzombak, Chair, Environmental Protection Agency 
  Science Advisory Board, Hydraulic Fracturing Research Advisory 
  Panel
    Oral Statement...............................................    32
    Written Statement............................................    34

Mr. John Rogers, Associate Director, Oil and Gas, Division of 
  Oil, Gas, and Mining, Utah Department of Natural Resources
    Oral Statement...............................................    45
    Written Statement............................................    48

Dr. Brian Rahm, New York Water Resources Institute, Cornell 
  University
    Oral Statement...............................................    53
    Written Statement............................................    56

Discussion.......................................................    69

             Appendix I: Answers to Post-Hearing Questions

Dr. Fred Hauchman, Director, Office of Science Policy, Office of 
  Research and Development, Environmental Protection Agency......    92

Dr. David A. Dzombak, Chair, Environmental Protection Agency 
  Science Advisory Board, Hydraulic Fracturing Research Advisory 
  Panel..........................................................    97

Mr. John Rogers, Associate Director, Oil and Gas, Division of 
  Oil, Gas, and Mining, Utah Department of Natural Resources.....   102

Dr. Brian Rahm, New York Water Resources Institute, Cornell 
  University.....................................................   105

            Appendix II: Additional Material for the Record

National Human Health Risk Evaluation for Hydraulic Fracting 
  Fluid Additives report, Gradient, submitted by the Majority, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   108

Letter from Ranger Resources, submitted by Representative Chris 
  Stewart, Chairman, Subcommittee on Environment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   129

Letter from Ranger Resources, submitted by Representative Chris 
  Stewart, Chairman, Subcommittee on Environment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   131


     LESSONS LEARNED: EPA'S INVESTIGATIONS OF HYDRAULIC FRACTURING

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                  House of Representatives,
             Joint Hearing with the Subcommittee on
                 Environment and the Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee on Environment] 
presiding.

[GRAPHIC] [TIFF OMITTED] T2221.001

[GRAPHIC] [TIFF OMITTED] T2221.002

[GRAPHIC] [TIFF OMITTED] T2221.003

[GRAPHIC] [TIFF OMITTED] T2221.004

[GRAPHIC] [TIFF OMITTED] T2221.005

[GRAPHIC] [TIFF OMITTED] T2221.006

[GRAPHIC] [TIFF OMITTED] T2221.007

    Chairman Stewart. The joint hearing on the Subcommittee of 
the Environment and the Subcommittee on Energy will come to 
order.
    Good morning, everyone. Welcome to today's joint hearing 
entitled ``Lessons Learned: EPA's Investigations of Hydraulic 
Fracturing.''
    Before we get started today, I would like to recognize my 
friend, David Piantanida--I can never say his name right--who 
is with the EPA Office of Research and Development. And Dave 
and Lisa had a little boy last Monday, as I understand. 
Congratulations. Probably the most important thing we will do 
today, so we want to recognize you for that.
    In front of each Member are packets containing the written 
testimony, biographies, and the truth-in-testimony disclosures 
for today's witnesses. Before we get started, since this is a 
joint hearing involving two Subcommittees, there were some 
questions, so I wanted to explain how we will operate 
procedurally so all Members understand how the question-and-
answer period will be handled.
    As always, we will alternate between the majority and the 
minority Members, first recognizing the Chair and Ranking 
Members of the Environment and Energy Subcommittees. We will 
recognize those Members present at the gavel in order of 
seniority on the full Committee, and those coming in after the 
gavel will be recognized in the order of their arrival.
    And I would now like to recognize myself for five minutes 
for my opening statement.
    I want to thank the witnesses for being here today. We had 
a chance to introduce ourselves and welcome you earlier, and 
again we thank you. Thank you for your time and your expertise. 
I would like to include a special welcome to John Rogers, 
Department of Natural Resources, from my home State of Utah.
    EPA's recent announcement that it is walking away from its 
attempt to link hydraulic fracturing to groundwater issues in 
Wyoming is the most recent example of the Agency employing what 
I consider a ``shoot first, ask questions later'' policy 
towards unconventional oil and gas production. Following 
investigations in Parker County, Texas, and also Pennsylvania, 
this marks the third case in which EPA has made sweeping 
allegations of fracking-caused contamination, only to have to 
recant these claims later due to errors, omissions, or breaches 
of protocol. At a time when so many Americans are learning to 
distrust their Federal Government, this is another blow for the 
credibility of the Federal agencies.
    This hearing is focused on EPA's ongoing study of hydraulic 
fracturing, a project initiated by a single line in a 2010 
appropriations bill that has blossomed into an examination 
costing tens of millions of taxpayer dollars that may not be 
complete until the latter half of this decade. Given EPA's rush 
to judgment in Wyoming and Texas and Pennsylvania, we should 
question whether the Agency's ongoing study is a genuine fact-
finding and scientific exercise or could it be a witch-hunt to 
find a pretext to regulate?
    Officials from EPA's Office of Research and Development, 
the scientists who are in charge of this study, have stated 
publicly that they are also conducting ``a pretty comprehensive 
look at all the statutes to determine where holes may allow for 
additional Federal oversight.'' These same officials have also 
overseen large shifts in both the study's timeline and the 
scope of the study since the last time the Agency's independent 
Science Advisory Board weighed in.
    Given the Administration's anti-fossil fuel, pro-
environmental alarmism in their approach to energy, we need to 
be vigilant in ensuring that the Agency does not put the 
regulatory cart before the scientific horse, threatening tens 
of thousands of good-paying jobs and hundreds of millions of 
dollars in economic development that have resulted from oil and 
gas production in recent years.
    Toward this end, this Committee, which has jurisdiction 
over the study and all science at EPA, has held dozens of 
hearings and sent far too many letters to the regulators in the 
last two Congresses.
    For example, in the beginning of May of this year, I sent a 
letter to the newly-formed independent Science Advisory Board 
panel on hydraulic fracturing asking what I thought were some 
fundamental questions about EPA's ongoing study, and I would 
like to enter a copy of this letter into the record.
    [The information follows:]
    Chairman Stewart. Under the Environmental Research, 
Development, and Demonstration Act of 1978, SABs were created 
to ``provide such scientific advice as may be requested'' by 
this Committee. And I would like to emphasize that. Let me say 
it again. SABs were created to provide scientific advice to 
this Committee.
    Unfortunately, despite promises made to the members of this 
panel, EPA's lawyers have prevented the supposedly independent 
panel of experts from responding directly to these questions. I 
believe that wastes taxpayers' resources and it is preventing 
the Board from following the law. Even worse, EPA's Office of 
General Counsel has refused to meet with me and my staff to 
explain this position. It bothers me that the Office of General 
Counsel refuses to meet with us. With such arrogance and 
dismissiveness, little wonder that the Administration is losing 
the confidence of the American people, as well as this 
Congress.
    This panel provided critical comments back to EPA on its 
study progress in late June, and, unfortunately, much of the 
feedback we received reiterated many of the concerns that we 
have. Independent scientists raised questions about the nature 
of EPA's study and whether it would have any use for decision-
makers. One panelist suggested the Agency needs to ``examine 
the rapid changes of chemicals being used and future trends 
toward greener chemicals.'' Another summarized that the failure 
to consider industry practices ``runs the risk of making the 
Agency's evaluation of the data, which in some cases may be 
several years old, obsolete and not relevant to the public, 
industry, and decision-makers at all levels in 2014.''
    Several members of this independent panel--whom, by the 
way, if I could point out, were appointed by the EPA 
Administrator--stated that the Agency's figures and 
characterizations were ``misleading,'' lacked relevant context, 
and were designed to produce ``self-fulfilling results.''
    The Agency's--or the Administration's interagency fracking 
research is now over a year late in making its study plan 
public. This seems especially important in light of the 
landmark study released this week by DOE's National Energy 
Technology Laboratory showing no evidence that fracking 
chemicals impacted drinking water in western Pennsylvania.
    For these and other issues, I look forward to this very 
important hearing.
    [The prepared statement of Mr. Stewart follows:]

   Prepared Statement of Subcommittee on Environment Chairman Chris 
                                Stewart

    Good afternoon, I'd like to welcome everyone to today's hearing, 
which is being held to review innovative approaches to technology 
transfer at universities, research institutes and National 
Laboratories, and to examine a discussion draft of legislation, titled 
the ``Innovative Approaches to Technology Transfer Act of 2013.''
    In 2012, the Federal Government funded more than $131 billion in 
research and development activities. More than half of all basic 
research conducted at our nation's colleges and universities is funded 
by the Federal Government.
    According to the Association of University Technology Managers, 
technology transfer is the process by which universities and research 
institutes transfer scientific findings from one organization to 
another for the purpose of further development or commercialization.
    The Bayh-Dole Act, passed in 1980, changed the incentive structure 
for universities and research institutes to work with commercial 
entities, including small businesses, to license and patent 
technologies. The Small Business Technology Transfer or STTR program 
was created to provide federal R&D funding for proposals that are 
developed and executed jointly between a small business and a 
researcher in a nonprofit research organization. My own state of 
Indiana has seen 99 STTR awards totaling more than $26 million. Both 
Bayh-Dole and the STTR program have helped to create jobs and translate 
new technologies into the marketplace.
    However, while the rate of technology transfer at our nation's 
universities, research institutes and national laboratories has 
increased since the passage of the Bayh-Dole Act and the creation of 
the STTR program, I believe we can do even better.
    The draft legislation, which is being developed under the 
leadership of my colleague from New York, Mr. Collins, will create a 
program to incentivize research institutions to implement innovative 
approaches to technology transfer to achieve better outcomes. The 
legislation would dedicate a portion of STTR program funding to provide 
grants to research institutions to help facilitate and accelerate the 
transfer of federally funded research and technology into the 
marketplace.
    We will be hearing today from the co-founder of a growing 
biotechnology business based in Charlottesville, Virginia that was 
developed out of federally funded R&D, with the assistance of private 
foundation technology transfer grant funding. We will also hear from 
the Assistant Vice President for Research and Associate Director of the 
Burton D. Morgan Center for Entrepreneurship at Purdue University in my 
home state of Indiana. And from the Assistant Vice Chancellor for the 
Office of Innovation, Technology, and Alliances at the University of 
California, San Francisco. Our witnesses have first-hand experience in 
technology transfer and can provide insight into how the proposed grant 
program could help facilitate better technology transfer outcomes.
    I'm looking forward to hearing from our witnesses on their thoughts 
about the proposed legislation, including any recommendations they have 
for improvements.
    We thank our witnesses for being here today and we look forward to 
your testimony.

    Chairman Stewart. I would now like to recognize the Ranking 
Member, Ms. Bonamici, for her opening statement.
    Ms. Bonamici. Thank you very much, Chairman Stewart and 
Chair Lummis.
    Over the past several years, we have seen a substantial 
expansion of fracking for oil and gas across the country. As 
this expansion continues, we must not ignore the potential 
public health risks that may be caused if the operations of 
fracking companies contaminate drinking water.
    I want to thank the Chairs of the Subcommittees for 
recognizing the importance of this issue by including in the 
hearing charter that a focus of the hearing will be to examine 
the EPA's investigations and ascertain any lessons that might 
be learned from these experiences and use to inform and improve 
the EPA's ongoing study of the potential impacts of hydraulic 
fracturing on drinking water resources.
    Hydraulic fracturing emerged as a commercial success in 
large part because of Federal investment in developing today's 
fracking technologies. Although fracking has boosted shale gas 
exploration to make it a formidable economic driver, providing 
increased energy security and creating jobs, the fast-paced and 
enormous scale of fracking for shale gas may be putting our 
water resources at risk.
    Our surface and groundwater resources are under tremendous 
strain throughout the country. Population expansion, 
residential and industrial development, droughts, and limited 
precipitation not seen before in some areas of the country have 
all contributed to this strain. These circumstances make access 
to clean water and the EPA's study even more important. If we 
want to enjoy the advantages and economic benefits of shale gas 
development, we must do so with the highest regard for safety 
and the protection of our precious water resources.
    We have all heard the stories about exploding drinking 
water wells, families with children who are exposed to 
potentially harmful levels of methane gas in their drinking 
water, and we should all be concerned about what could happen 
going forward. Fracking for shale gas is predicted to continue 
for some time. State, federal, and tribal leaders, in addition 
to Americans all over the country are alarmed about whether 
their drinking water is at risk and they deserve answers to 
their questions.
    The current debate over fracking goes beyond groundwater 
and includes well integrity concerns, documented induced 
seismicity events, and potential negative impacts to the health 
of workers at these facilities. Although the primary focus of 
the EPA's study we will discuss today is the connection to 
drinking water resources, all of these concerns and important 
questions must be addressed. Some, especially from the 
industry, submit that no additional studies are needed, that 
Americans should trust that the industry knows what it is doing 
or that Federal interference is unnecessary because States are 
already implementing best practices.
    Although some States may be up to the managerial task if 
they have demonstrated knowledge of local geology, hydrology, 
and infrastructure, other States are not as prepared. Some have 
only begun to develop rules establishing best practices for 
companies operating fracking facilities within their borders.
    The oil and gas industry has a history of adopting 
environmental measures only after the drop of the regulatory 
gavel by state or Federal environmental regulatory authorities. 
Accordingly, EPA's role, aided by rigorous peer review process 
overseen by the EPA Science Advisory Board must figure 
prominently in this debate. State and tribal leaders will need 
the results from the fracking study to formulate stronger 
policies to protect their water resources and the health of 
their citizens. And hopefully, communities will have answers to 
the questions about drinking water safety they have long been 
asking their state and Federal leaders.
    Since the initial passage of the Environmental Research 
Development and Demonstration Authorization Act almost 40 years 
ago, the role of the EPA has been to ask and answer the most 
challenging scientific questions related to industrial activity 
in our communities. Their scientific research in collaboration 
with States, tribal authorities, industry, community leaders, 
and other stakeholders has led to the development of clear and 
stronger environmental policies and practices over the decades.
    The result of that collaboration has been unquestionable 
benefits for our economy, certainty for industry, and 
protection of our water quality. Without a better understanding 
of the fracking water cycle and the impacts to drinking water 
and groundwater, we will not know enough about the potential 
risks to equip State and localities with the tools necessary to 
keep their citizens healthy and safe.
    I look forward to hearing about EPA's progress on its 
drinking water study. And with that, Mr. Chairman, I yield 
back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee on Environment Ranking Member 
                            Suzanne Bonamici

    Thank you, Chair Stewart and Chair Lummis. Over the past several 
years we have seen a substantial expansion of fracking for oil and gas 
across the country. As this expansion continues, we must not ignore the 
potential public health risks that may be caused if the operations of 
fracking companies contaminate drinking water. I want to thank the 
Chairs of the Subcommittees for recognizing the importance of this 
issue by including in the Hearing Charter that a focus of the hearing 
will be to examine the EPA's investigations and ``ascertain any lessons 
that might be learned from these experiences and used to inform and 
improve the EPA's ongoing study of the potential impacts of hydraulic 
fracturing on drinking water resources.''
    Hydraulic fracturing, or ``fracking,'' emerged as a commercial 
success in large part because of federal investment in developing 
today's fracking technologies. Although fracking has boosted shale gas 
exploration to make it a formidable economic driver, providing 
increased energy security and creating jobs, the fast pace and enormous 
scale of fracking for shale gas may be putting our water resources at 
risk.
    Our surface and groundwater resources are under tremendous strain 
throughout the country. Population expansion, residential and 
industrial development, droughts, and limited precipitation not seen 
before in some areas of the country have all contributed to this 
strain. These circumstances make access to clean water and the EPA's 
study even more important. If we want to enjoy the advantages and 
economic benefits of shale gas development, we must do so with the 
highest regard for safety and the protection of our precious water 
resources.
    We have heard about exploding drinking water wells and families 
with children who are exposed to potentially harmful levels of methane 
gas in their drinking water--we should all be concerned about what 
could happen going forward. Fracking for shale gas is predicted to 
continue for some time. State, federal, and tribal leaders, in addition 
to Americans all over the country, are alarmed about whether their 
drinking water is at risk, and they deserve answers to their questions.
    The current debate over fracking goes beyond groundwater and 
includes well integrity concerns, documented induced seismicity events, 
and potential negative impacts to the health of workers at these 
facilities. Though the primary focus of the EPA study we will discuss 
today is the connection to drinking water resources, all of these 
concerns and important questions must be addressed.
    Some, especially from the industry, submit that no additional 
studies are needed, that Americans should trust that the industry knows 
what it's doing, or that federal interference is unnecessary because 
states are already implementing their own best practices. Although some 
states may be up to the managerial task if they have demonstrated 
knowledge of local geology, hydrology, and infrastructure, other states 
are not as prepared. Some have only begun to develop rules establishing 
best practices for companies operating fracking facilities within their 
borders.
    The oil and gas industry has a history of adopting environmental 
measures only after the drop of the regulatory gavel by federal or 
state environmental regulatory authorities. Accordingly, EPA's role--
aided by the rigorous peer-review process overseen by the EPA Science 
Advisory Board--must figure prominently in this debate. State and 
tribal leaders will need the results from the fracking study to 
formulate stronger policies to protect their water resources and the 
health of their citizens. And, hopefully, communities will have answers 
to the questions about drinking water safety that they have long been 
asking their state and federal leaders.
    Since the initial passage of the Environmental Research, 
Development, and Demonstration Authorization Act almost 40 years ago, 
the role of the EPA has been to ask and answer the most challenging 
scientific questions related to industrial activity in our communities. 
Their scientific research, in collaboration with states, tribal 
authorities, industry, community leaders, and other stakeholders, has 
led to the development of clearer and stronger environmental policies 
and practices over the decades. The result of that collaboration has 
been unquestionable benefits for our economy, certainty for industry, 
and protection of our water quality. Without a better understanding of 
the fracking water cycle and the impacts to drinking water and 
groundwater, we will not know enough about the potential risks to equip 
states and localities with the tools necessary to keep their citizens 
healthy and safe.
    I look forward to hearing EPA's progress on its drinking water 
study. And, with that I yield back.

    Chairman Stewart. Thank you, Ms. Bonamici. The Chair now 
recognizes the Chairman of the Subcommittee on Energy, Mrs. 
Lummis, for her opening statement.
    Chairman Lummis. Thanks, Mr. Chairman.
    And I want to thank both the Chairman of the Environment 
Subcommittee to my right and the Chairman of the full Committee 
to my left for holding this important hearing, ``Lessons 
Learned: EPA's Investigations of Hydraulic Fracturing.'' Also, 
I want to thank the witnesses for taking time to be here this 
morning.
    The EPA's Study of the Potential Impact on--of Hydraulic 
Fracturing on Drinking Water Resources has been going on for 
over three years now, and the final report is expected next 
year. Given the national and international interest in the 
results of this endeavor, I think it is important that the 
Committee take a step back and assess the Agency's track record 
on hydraulic fracturing. I hope the phrase ``lessons learned'' 
can be a useful starting point as we review past EPA behavior 
to inform and hopefully improve the ongoing work on hydraulic 
fracturing. Sadly, the Agency's track record in this regard, 
particularly in my home State of Wyoming, gives me little 
confidence.
    Last month, the Agency decided to terminate work on its 
draft report that wrongly alleged that groundwater 
contamination near Pavillion, Wyoming, was related to fracking. 
The EPA's work in Wyoming was so riddled with mistakes in well 
construction, errors in sampling techniques, and failures to 
follow protocol that their only course of action was to do the 
right thing and withdraw the report.
    And while I am relieved that EPA transferred authority to 
the State of Wyoming on any continued work in Pavillion, I am 
troubled that the Agency continues to insist that it ``stands 
by its work'' on Pavillion.
    I hope the EPA will avoid making these same mistakes in its 
broader ongoing study, but I lack confidence when the EPA 
stands by its work even when that work is shoddy and led even 
prestigious publications to frighten Americans about this 
significant technology. The new study design is flawed and 
indicative of the Agency's characteristic outcome-driven 
approach to hydraulic fracturing, where achieving desired 
conclusions takes precedent over basing those conclusions on 
the best available science.
    For example, this study, intended to be a seminal and 
authoritative work on whether or not hydraulic fracturing 
impacts drinking water, is guided not by what is likely or 
probable but by a search for what is merely possible. In this 
manner, the Agency appears headed towards developing 
conclusions completely divorced from any useful context. It is 
akin to a weatherman warning citizens to take shelter based on 
the possibility that a storm will occur without including any 
indication of when, where, and how likely it is to actually 
take place.
    I am not alone in this concern, as several of the panelists 
on EPA's Science Advisory Board's Hydraulic Fracturing Research 
Advisory have similarly expressed apprehension over the lack of 
context the Agency is providing and its neglect of risk 
assessment.
    Let me just read a few comments, which I urge EPA to 
incorporate. These comments are from the advisory. ``To simply 
discount the regulatory work in place and model what-if and 
worst-case scenarios will not produce realistic results, 
relevant context has to be taken into account, absent 
information on chemical concentrations, amounts used, site 
storage conditions, duration of storage onsite, and containment 
systems, the information will not support an assessment of the 
potential impact to drinking water resources. Inappropriately, 
this experimental design produces self-fulfilling results.'' 
Mind you, these are quotes. ``Clearly, EPA should do much more 
to put this information into context'' from the advisors.
    These statements summarize just some of the concerns I have 
with EPA's approach to hydraulic fracturing, concerns I hope 
are a result of the collection of honest mistakes made by the 
Agency rather than a calculated pattern of behavior based on 
regulatory intentions. I look forward to hearing how the Agency 
has learned from its past work and plans to improve its work in 
the future.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mrs. Lummis follows:]

  Prepared Statement of Subcommittee on Energy Chairman Cynthia Lummis

    Good morning and I thank the Chairman of the Environment 
Subcommittee for holding this important hearing, Lessons Learned: EPA's 
Investigations of Hydraulic Fracturing. I want thank the witnesses for 
taking the time to be here this morning and I look forward to their 
valuable testimony.
    The EPA's Study of the Potential Impact of Hydraulic Fracturing on 
Drinking Water Resources has been going on for over three years now, 
and the final report is expected next year. Given the national-and 
international-interest in the results of this endeavor, I think it's 
important that the Committee takes this time to take a step back and 
assess the Agency's track record on hydraulic fracturing. I hope that 
phrase lessons learned can be a useful starting point this morning as 
we review past EPA behavior in order to inform and hopefully improve 
its ongoing work on hydraulic fracturing. Unfortunately, the Agency's 
track record in this regard--particularly in my home state of Wyoming--
gives me no cause for confidence.
    Initially, I was pleased to hear last month that the Agency decided 
to terminate all work on its draft report alleging fracking 
contaminated ground water in Pavillion, Wyoming. This undertaking was 
so riddled with mistakes in well construction, errors in sampling 
techniques, and failures to follow protocol that even the USGS--a 
fellow federal agency--could not replicate the results. However, while 
I am relieved that EPA decided to stop digging itself into a deeper 
scientific hole, I am extremely troubled that the Agency continues to 
brazenly insist it ``stands by its work'' on Pavillion.
    I hope the EPA will avoid making these same mistakes in its 
broader, ongoing study, but cause for optimism is wanting. The study 
design is flawed and indicative of the Agency's characteristic outcome-
drive approach to hydraulic fracturing, where achieving desired 
conclusions takes precedent over basing those conclusions on the best 
available science. In that vein, this study, intended to be a seminal 
and authoritative work on whether or not hydraulic fracturing impacts 
drinking water, is guided by a search for what is possible, rather than 
what is likely or probable.
    In this manner, the Agency appears headed toward developing 
conclusions completely divorced from any useful context. It is akin to 
a weatherman warning citizens to take shelter based on the possibility 
that a storm will occur, without including any indication of when the 
storm might occur, where it might hit, and how likely it is to actually 
take place. I am not alone in this concern, as several of the panelists 
on the EPA's Science Advisory Board's Hydraulic Fracturing Research 
Advisory have similarly expressed apprehension over the lack of context 
the Agency is providing and its neglect of risk assessment.
    Let me just read a few of those comments, which I urge the EPA to 
incorporate:

    <bullet>  ``To simply discount the regulatory network in place and 
model ``what if'' and ``worse case'' scenarios will not produce 
realistic results''
    <bullet>  ``relevant context has to be taken into account''
    <bullet>  ``absent information on chemical concentrations, amounts 
used, site storage conditions, duration of storage onsite, and 
containment systems, the information will not support an assessment of 
the potential impact to drinking water resources.''
    <bullet>  ``Inappropriately, this experimental design produces 
self-fulfilling results''
    <bullet>  ``clearly, EPA should do much more to put this 
information into context''

    These statements summarize just some of the concerns I have with 
EPA's approach to hydraulic fracturing, concerns I hope are a result of 
a collection of honest mistakes made by the Agency rather than a 
calculated pattern of behavior based on regulatory intentions. I look 
forward to hearing how the Agency has learned from its past work and 
plans to improve its work in the future.
    Thank you Mr. Chairman, and I yield back.

    Chairman Stewart. Thank you, Madam Chairwoman.
    The Chair now recognizes Mr. Swalwell for his opening 
statement.
    Mr. Swalwell. Thank you, Chairman Stewart and Chairman 
Lummis, for holding this hearing and also I want to thank our 
witnesses for being here with us today. And I also embrace and 
look forward to the opportunity to examine EPA's efforts to 
determine whether there is a significant link between fracking 
and groundwater quality and, if so, what next future steps we 
need to take to make sure that our drinking water is clean and 
safe, and if this technology is able to be done safely, where 
and how is the best way to do that?
    As I have said before over and over in this Committee, I do 
support an all-of-the-above approach to energy production and I 
do believe that if we can make it safe, we should make it 
happen. However, in any technology, if we cannot make it safe, 
we should try and fix it to make it safe, and if not, certainly 
not expose consumers and citizens to any of the hazards that 
may exist in any project.
    The emerging natural gas boom obviously provides an 
exciting opportunity for our Nation, not to mention California, 
to create jobs and diversify energy options for both consumers 
and industry over the next several years. That said, when it 
comes to fracking, I still believe we need to proceed with 
extreme caution.
    And I understand the concern of the Chairman, both Chairman 
Lummis and Chairman Stewart about the length of time it has 
taken, but, frankly, I don't think three years is too long at 
this point for something that is so serious. And, as I have 
said, and I know many of my colleagues are committed, if we can 
make this technology safe, we are willing to make it happen, 
but we do have concerns, especially in California, about 
seismic activity and what fracking could do with seismic 
activity.
    And with respect to the study in Wyoming, I certainly share 
Chairman Lummis' concerns about what happened with that EPA 
study, and what I am interested in learning is whether that 
study was something that was supposed to be limited and limited 
in scope only to the concern of groundwater affecting a 
particular person or a particular group of individuals and 
rather that--and whether that study should really be projected 
more broadly as an EPA groundwater study.
    So I think there is legitimate debate about whether the 
study that was done should be used or whether there is a more 
broad, comprehensive study taking place. But I look forward to 
working with both Chairs to see that.
    And we have to be careful that when we do extract this 
resource that we do it carefully without unintended, serious 
consequences to either our health or environment. And while I 
know that the focus of this hearing is mostly on the EPA and 
groundwater contamination, I have brought up my concerns in the 
past about what I think are direct links between seismic 
activity and fracking.
    And as I have said, it may be the case that perhaps 
California is not the best place to have hydraulic fracking and 
perhaps other States that don't have seismic concerns, if they 
can show that there will not be groundwater contamination, that 
would be the best place to conduct fracking. It would be very 
shortsighted, though, to produce energy via fracking in 
California to only find that it would lead to seismic activity 
or further seismic activity.
    So I am pleased that the EPA and other Federal agencies, 
along with many of the partners in your States, are taking 
these issues seriously. And I urge you to take the time you 
need to get the most accurate answers possible, even if some of 
them don't turn out to be what we want to hear. There is simply 
no place for politics when it comes to making sure that the 
water that our families rely upon is safe and that the homes 
that we live in are not put at further risk of a manmade 
disaster. And so I look forward to learning more on this issue.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Swalwell follows:]

   Prepared Statement of Subcommittee on Energy Ranking Member Eric 
                                Swalwell

    Thank you Chairman Stewart and Chairman Lummis for holding this 
hearing today, and I also want to thank the witnesses for being here. I 
appreciate the opportunity to further examine the EPA's efforts to 
determine whether there is a significant link between fracking and 
groundwater quality and, if so, the next steps we need to take to 
ensure that our drinking water is clean and safe.
    As I've said before, I agree with those who say we need an ``all of 
the above'' approach to energy production. The emerging natural gas 
boom obviously provides an exciting opportunity for our nation--not to 
mention California--to create jobs and diversify energy options for 
both consumers and industry over the next several years.
    That said, when it comes to fracking, we need to proceed with 
extreme caution. We have to be careful that we extract this resource 
safely, without unintended, serious consequences to either our health 
or the environment. While I know it is not the focus of this particular 
hearing, it is still worth noting to these expert witnesses that a 
particular concern to Californians is the possibility that hydraulic 
fracturing might cause earthquakes. It would be very short-sighted to 
produce energy via fracking only to find out later that it caused such 
damage.
    So I am pleased that the EPA and other relevant federal agencies, 
along with many of your partners in the states, are taking these issues 
seriously. I urge you to take the time you need to get the most 
accurate answers possible, even if some of them don't turn out to be 
what we want to hear. There is simply no place for politics when it 
comes to making sure that the water that our families rely on is safe, 
and the homes that we live in are not at risk of a man-made disaster.
    I look forward to learning more on this important issue, and with 
that, I yield back the balance of my time.

    Chairman Stewart. Thank you, Mr. Swalwell.
    Like you, I would love to explore that question of the 
impacts. Geological impacts of fracking, I think, would be 
something that would be obviously beneficial and I think the 
result would be, I think, positive as well in the sense of it 
would allow the country to continue towards energy 
independence.
    With that, though, I now recognize Mr. Smith, the Chairman 
of the full Committee, for an opening statement.
    Chairman Smith. Thank you, Mr. Chairman.
    First of all, before I start my opening statement, I do 
want to acknowledge the opening statements by the Ranking 
Members of the Energy and Environment Subcommittees because I 
thought they were very measured opening statements and we can 
look for ways to try to achieve the same goals.
    It seems that each week there is more good news about the 
incredible benefits of the fracking energy revolution that is 
underway across America. Whether it is the manufacturing 
renaissance taking place in this country thanks to cheap 
natural gas, the creation of over one million jobs and 
counting, or the potential for liquefied natural gas exports to 
spur economic growth, the benefits of shale gas production can 
hardly be overstated.
    The fracking process is turning out to be a way to achieve 
energy independence, strengthen our national security, and 
stimulate the economy, all with minimal impact to the 
environment.
    However, some--however, the EPA has too often been 
complicit in an effort to try to undercut this new development. 
They have attempted to link fracking to water contamination in 
at least three cases, only to be forced to retract their 
statements after further scrutiny proved them to be unfounded. 
Their track record and bias makes the EPA's ongoing study of 
the relationship between hydraulic fracturing and drinking 
water resources even more troubling.
    I am concerned that the EPA has failed to include a risk 
assessment as part of this study, instead choosing to simply 
identify potential risks without providing any context or 
consideration of their likelihood. This deficiency would 
significantly undermine the study's objectivity and ultimately 
impair its utility.
    Recent Science Advisory Board reviewers have noted this 
deficiency as well. In comments last month on the EPA study, 
one reviewer stated, ``There is no quantitative risk assessment 
included in EPA's research effort. Thus, a reader has no sense 
of how risky any operation may be in ultimately impacting 
drinking water.'' This is a concern that I hope the EPA will 
address in today's hearing.
    The Agency should base its work on sound science rather 
than regulatory ambition. However, if the Agency fails to do 
this, a legislative remedy may be warranted to address the 
study's deficiencies.
    Thank you, Mr. Chairman, and I will yield back.
    [The prepared statement of Mr. Smith follows:]

       Prepared Statement of Full Committee Chairman Lamar Smith

    It seems that each week there is more good news about the 
incredible benefits of the fracking energy revolution that is underway 
across America. Whether it's the manufacturing renaissance taking place 
in this country thanks to cheap natural gas, the creation of over one 
million jobs and counting, or the potential for liquefied natural gas 
exports to spur economic growth, the benefits of shale gas production 
can hardly be overstated.
    The fracking process is turning out to be a way to achieve energy 
independence, strengthen our national security and stimulate the 
economy, all with minimal impact to the environment. However, some 
choose to ignore these benefits and instead focus on finding ways to 
restrain, if not stifle, the new development.
    The EPA has too often been complicit in this effort. They have 
attempted to link fracking to water contamination in at least three 
cases, only to be forced to retract their statements after further 
scrutiny proved them to be unfounded.
    Their track record and bias makes the EPA's ongoing study of the 
relationship between hydraulic fracturing and drinking water resources 
even more troubling. I am concerned that the EPA has failed to include 
a risk assessment as part of this study, instead choosing to simply 
identify potential risks without providing any context or consideration 
of their likelihood. This deficiency would significantly undermine the 
study's objectivity and ultimately impair its utility.
    Recent Science Advisory Board reviewers have noted this deficiency 
as well. In comments last month on the EPA study, one reviewer stated, 
``There is no quantitative risk assessment included in EPA's research 
effort. Thus, the reader has no sense of how risky any operation may be 
in ultimately impacting drinking water.'' This is a concern that I hope 
the EPA will address in today's hearing.
    The Agency should base its work on sound science rather than 
regulatory ambition. However, if the Agency fails to do this, a 
legislative remedy may be warranted to address the study's 
deficiencies.
    Thank you and I yield back.

    Chairman Stewart. Thank you, Mr. Chairman.
    And if I could just reiterate your comments about Mr. 
Swalwell and Ms. Bonamici, that their efforts, a bipartisan 
effort, their goodwill and frankly their background and 
intelligence that they bring to these conversations is greatly 
appreciated. So thank you for recognizing that.
    Chairman Smith. Mr. Chairman, may I be recognized for one 
more quick comment?
    Chairman Stewart. Yes, of course, Mr. Chairman.
    Chairman Smith. And that is just to apologize to our 
witnesses today. I am going to need to shuttle between this 
hearing and a markup in the Judiciary Committee, so I will be 
missing some important testimony but we will catch up later on.
    Thank you, Mr. Chairman. I yield back.
    Chairman Stewart. Yes, Mr. Chairman.
    The Chair now recognizes the Ranking Member of the full 
Committee, Ms. Johnson, for an opening statement as well.
    Ms. Johnson. Thank you, Mr. Chairman, and thanks to the 
Chairman and Ranking Members of these committees.
    I am pleased that Energy and Environment Subcommittees are 
holding the hearing today and I welcome all of our 
distinguished panelists to the Committee.
    Like so many others, I am concerned about the health and 
welfare of hardworking families who live around fracking 
facilities. Concerns about contamination of groundwater and 
drinking water have troubled us since the shale gas boom 
started over a decade ago. And of course that shale gas boom 
would likely not exist without critical research investments 
from the Department of Energy over 30 years ago to bring new 
natural gas online.
    But as a number of fracking facilities operating in oil and 
gas in States have gone from hundreds to thousands, the number 
of reports from citizens complaining of contamination of their 
drinking water has increased. Excuse me. We must be careful not 
to sacrifice the quality of our natural water resources for the 
sake of cheaper gas.
    We need clean water as much as we need affordable energy 
options. Our water resources are already stretched to support 
our industrial and our agricultural sectors and residential and 
commercial development. We cannot afford to contaminate the 
limited drinking water supplies that we have. Like so many of 
our hearings involving oil and gas industry, I expect that some 
of our colleagues across the aisle will not like anything that 
the EPA has to say about its progress in researching these 
issues, but it is in the best interest of everyone, especially 
the fracking industry, to resolve questions surrounding the 
fracking water cycle and impact on groundwater and drinking 
water.
    In closing, I would like to again dispel the myth that 
because I expect it will be undoubtedly raised, that Democrats 
are mounting a war on oil and gas, that is simply not true. We 
simply recognize that our Nation is strengthened by both 
diversifying our energy supply and protecting public health. 
These go hand-in-hand. Americans have a right to clean water 
and a healthier environment. The gas will be there and it is up 
to the industry to make sure it can be produced in an 
environmentally sound manner.
    Thank you and I yield back.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Full Committee Ranking Member Eddie Bernice 
                                Johnson

    I am very pleased that the Energy and Environment Subcommittees are 
holding this hearing today, and I welcome all of our distinguished 
panelists to the Committee. Like so many others, I am concerned about 
the health and welfare of hardworking families who live around fracking 
facilities. Concerns about contamination of groundwater and drinking 
water have troubled us since the shale gas boom started over a decade 
ago. And of course, that shale gas boom would likely not exist without 
critical research investments made by the Department of Energy over 30 
years ago to bring new natural gas online.
    But, as the number of fracking facilities operating in oil and gas 
rich states has gone from hundreds to thousands, the number of reports 
from citizens complaining of contamination of their drinking water has 
increased. We must be careful not to sacrifice the quality of our 
natural water resources for the sake of cheaper gas. We need clean 
water as much as we need affordable energy options. Our water resources 
are already stretched to support our industrial and agricultural 
sectors, and residential and commercial development. We cannot afford 
to contaminate the limited drinking water supplies that we have.
    Like so many of our hearings involving the oil and gas industry, I 
expect that some of my colleagues across the aisle will not like 
anything that the EPA has to say about its progress in researching 
these issues. But, it is in the best interest of everyone, especially 
the fracking industry, to resolve questions surrounding the fracking 
water cycle and the impact to groundwater and drinking water.
    In closing, I would like to once again dispel the myth-because I 
expect that it will undoubtedly be raised--that the Democrats are 
mounting a war on oil and gas. We simply recognize that our nation is 
strengthened by both diversifying our energy supply AND protecting 
public health. These go hand in hand. Americans have a right to clean 
water AND a healthier environment. The gas will be there, and it is up 
to the industry to make sure it can be produced in an environmentally 
sound manner.
    Thank you, and I yield back.

    Chairman Stewart. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    We now turn our attention to our witnesses, and I will 
introduce each of you just previous to your opportunity to 
speak and give your opening statements for five minutes.
    Our first witness is Dr. Fred Hauchman, Director of the 
Office of Science Policy at EPA's Office of Research and 
Development. Dr. Hauchman has worked with EPA since 1985 in a 
variety of scientific and executive positions. He previously 
served as the Director of Microbiological and Chemical Exposure 
Assessment Research Division and is a Senior Scientist in EPA's 
Office of Air Quality Planning and Standards.
    Dr. Hauchman received his Ph.D. from Johns Hopkins 
University. He is a senior official overseeing EPA's ongoing 
study of hydraulic fracturing and drinking water. And, Dr. 
Hauchman, welcome to the Committee. And you are now allowed 
five minutes for your opening testimony.

                TESTIMONY OF DR. FRED HAUCHMAN,

              DIRECTOR, OFFICE OF SCIENCE POLICY,

              OFFICE OF RESEARCH AND DEVELOPMENT,

                ENVIRONMENTAL PROTECTION AGENCY

    Dr. Hauchman. Thank you, and good morning, Chairman Lummis, 
Chairman Stewart, and other distinguished Members of the two 
Subcommittees. My name is Fred Hauchman and I am, as was 
stated, the Director of the Office of Science Policy within the 
Office of Research and Development at the U.S. Environmental 
Protection Agency. I appreciate this opportunity to talk with 
you today about the EPA's study of the potential impacts of 
hydraulic fracturing on drinking water resources with an 
emphasis on adherence to protocols, procedures, and other 
science policies that govern our research.
    As the President has stated, oil and natural gas are 
important sources of energy, and these will continue to play a 
vital role in our Nation's energy future. The Administration 
has further emphasized that the extraction and development of 
these energy resources must be done safely, responsibly, and be 
guided by the best available science.
    In 2010, Congress requested that EPA conduct a study of the 
relationship between hydraulic fracturing and drinking water 
resources. In response this request, the EPA designed a study 
that covers the full hydraulic fracturing water cycle from the 
actual acquisition of the water through the ultimate treatment 
and disposal. The EPA's Science Advisory Board affirmed the 
study's scope and the research approaches that are being taken 
and found that it is responsive to the Congressional request.
    In December of this past year, we released a progress 
report on the study, and in late 2014, we will issue a draft 
final report that will be presented to the Science Advisory 
Board for review and will also of course be available for 
public comment.
    I would like to turn now to the important issue of 
scientific integrity. The EPA is committed to ensuring 
scientific integrity in its research and is conducting this 
study consistent with the Agency's Scientific Integrity Policy. 
As noted in the EPA's study plan, all agency-funded research 
projects must comply with the Agency's rigorous quality 
assurance requirements. We are following the six principles 
that were laid out by Congress when it requested EPA to conduct 
the study.
    First, we are using the best available science. Under the 
direction of the EPA's senior scientific leadership, highly 
skilled teams of EPA's scientists are conducting research using 
state-of-the-art laboratories and methods. All the data 
analyses and literature reviews are using the highest-quality 
information that is available.
    Second, we are incorporating independent sources of 
information into our research. EPA's scientists are gathering 
and analyzing data from the peer-reviewed literature, from 
state agencies, from industry, and from other sources to ensure 
that we have a thorough and current understanding of 
information relating to hydraulic fracturing.
    Third, we are following a rigorous quality assurance 
protocol. All research associated with the study is conducted 
in accordance with the Agency's rigorous quality assurance 
program and meets the Office of Research and Development's 
requirements for the highest level of quality assurance. Each 
research project is guided by an approved and publicly 
available quality assurance project plan.
    Fourth, we are engaging stakeholders at every level. This 
includes the public, industry, nongovernmental organizations, 
tribal representatives, and state, interstate, and Federal 
agencies. For example, we have conducted a series of technical 
workshops. These occurred in 2011, 2012, and we are conducting 
another round of expert workshops dealing with the technical 
issues pertaining to the study this very year. We have also 
solicited data and literature from stakeholders through the 
Federal Register.
    Fifth, we are conducting the study in a transparent 
fashion. Throughout the course of this study from the very 
beginning, the EPA shared and will continue to share 
information with the public about our research procedures, the 
status of our work, and our findings. We have held numerous 
public information sessions, workshops, and roundtables, and we 
have posted extensive information on the EPA's website.
    Sixth, we are committed to a thorough peer review. The EPA 
conducts its reviews in accordance with the Agency's peer 
review policy, EPA's peer review handbook, and the guidance 
provided by the Office of Management and Budget. The EPA is 
committed to this peer review of the report as a highly 
influential scientific assessment and this review will be 
reviewed by the Science Advisory Board in 2014.
    In conclusion, the EPA's study is a high-quality study, it 
is transparent, it is current, and it is peer-reviewed. It also 
is responsive to the request of Congress.
    Thank you for the opportunity to be here with you today. I 
look forward to answering any questions you may have.
    [The prepared statement of Mr. Hauchman follows:]

    [GRAPHIC] [TIFF OMITTED] T2221.008
    
    [GRAPHIC] [TIFF OMITTED] T2221.009
    
    [GRAPHIC] [TIFF OMITTED] T2221.010
    
    [GRAPHIC] [TIFF OMITTED] T2221.011
    
    [GRAPHIC] [TIFF OMITTED] T2221.012
    
    [GRAPHIC] [TIFF OMITTED] T2221.013
    
    [GRAPHIC] [TIFF OMITTED] T2221.014
    
    [GRAPHIC] [TIFF OMITTED] T2221.015
    
    Chairman Stewart. Thank you, Dr. Hauchman. And we look 
forward to addressing some of your statements and following up 
with that as well.
    Our second witness today is Dr. David Dzombak, Chair of 
EPA's Science Advisory Board's Hydraulic Fracturing Research 
Advisory Panel, which recently provided feedback to the Agency 
on its ongoing hydraulic fracturing study and will review the 
completed study in late 2014.
    Dr. Dzombak is also the head of the Department of Civil and 
Environmental Engineering at Carnegie Mellon University. In 
addition to his current capacity, Dr. Dzombak has been part of 
EPA's National Advisory Council for Environmental Policy and 
Technology and the National Research Council. He received his 
Ph.D. from MIT. Dr. Dzombak, then, your testimony.

               TESTIMONY OF DR. DAVID A. DZOMBAK,

                CHAIR, ENVIRONMENTAL PROTECTION

                 AGENCY SCIENCE ADVISORY BOARD,

                      HYDRAULIC FRACTURING

                    RESEARCH ADVISORY PANEL

    Dr. Dzombak. Good morning. Chairman Stewart, Ranking Member 
Bonamici, Chairman Lummis, Ranking Member Swalwell, 
distinguished Subcommittee Members, ladies and gentlemen, thank 
you for the opportunity to testify before both Subcommittees.
    I am Dave Dzombak, Professor and Head of the Department of 
Civil and Environmental Engineering at Carnegie Mellon 
University. My teaching and research is focused in water 
quality engineering and science. I have also been continuously 
engaged in professional and public service, including service 
on the EPA's Science Advisory Board in various roles since 
2002. I am Chair of the SAB Hydraulic Fracturing Advisory 
Panel. This is an ad hoc panel formed by the SAB staff in 
response to a request from the EPA Office of Research and 
Development for peer review of their study.
    As requested in your invitation, I will provide some 
background on the SAB, the role the SAB and the advisory panel 
with respect to the EPA's study, panel activities to date, and 
our plans for future activities. I should emphasize that my 
testimony I speak for myself and not for the advisory panel 
members, the chartered SAB, or SAB management and staff.
    Congress established the SAB in 1978 and gave it a broad 
mandate: to advise the Agency on scientific and technical 
matters. The EPA Administrator appoints members to the 
chartered SAB, which conducts its work using subcommittees or 
ad hoc panels of chartered SAB members augmented with 
additional experts. The SAB is subject to and operates under 
the regulations of the Federal Advisory Committee Act, or FACA.
    The SAB has been involved with providing scientific peer 
review and expert advice since the beginning of the EPA 
research study. This has included review of the research 
scoping plan in 2010 and the detailed research study plan in 
2011. I chaired both of these reviews, which were conducted by 
two different panels. Both resulted in consensus advisory 
reports that were submitted to the Administrator after review 
by the chartered SAB.
    For the December 2012 progress report, EPA requested a 
consultation and the current panel was formed. An SAB 
consultation is an opportunity for EPA to hear from individual 
experts and does not require consensus among the experts, nor 
preparation of a detailed report. After a consultation occurs, 
a compilation of individual expert comments from SAB panel 
members is often developed for the Agency's consideration.
    The SAB anticipates that the Agency will submit a scheduled 
2014 report of research study results for peer review. At that 
time, the panel will conduct a review organized around charge 
questions, consider public comment, and develop a written 
report for review by the chartered SAB. Each of these steps 
will be conducted at open meetings.
    The advisory panel has 31 members and is the largest SAB 
panel ever formed. The panel has at least three experts in each 
of nine areas of expertise identified by the SAB staff as 
needed considering the activities included in the final study 
plan. The members of the panel represent a balance of 
industrial, academic, nongovernment, and government experts.
    During our May 2013 consultation meeting, panel members 
provided their individual expert comments on 12 charge 
questions covering five--the five major stages of the hydraulic 
fracturing water cycle. Seven members of the public presented 
oral statements at the beginning of the meeting and two 
presented clarifying oral statements at the end. Written public 
comments were submitted by 13 individuals or organizations for 
consideration by the panel, and all these submitted comments 
were posted promptly to the SAB website.
    There will be additional opportunities for the advisory 
panel to consider new and emerging information related to the 
hydraulic fracturing research study. The panel plans to hold a 
teleconference in fall 2013 to discuss such information. As I 
noted previously, our panel will be in place to conduct peer 
review of EPA's 2014 report.
    I thank both Subcommittees again for the opportunity to 
testify. In closing, I would like to note that EPA reached out 
early to the SAB for scientific peer review of the hydraulic 
fracturing research study. The engagement has continued since 
initiation of the research and it is my understanding that EPA 
plans to continue the engagement in their review of research 
products. I will do my best as Chair to ensure in-depth, very 
high-quality, and transparent peer review.
    [The prepared statement of Mr. Dzombak follows:]

    [GRAPHIC] [TIFF OMITTED] T2221.017
    
    [GRAPHIC] [TIFF OMITTED] T2221.018
    
    [GRAPHIC] [TIFF OMITTED] T2221.019
    
    [GRAPHIC] [TIFF OMITTED] T2221.020
    
    [GRAPHIC] [TIFF OMITTED] T2221.021
    
    [GRAPHIC] [TIFF OMITTED] T2221.022
    
    [GRAPHIC] [TIFF OMITTED] T2221.023
    
    [GRAPHIC] [TIFF OMITTED] T2221.024
    
    [GRAPHIC] [TIFF OMITTED] T2221.025
    
    [GRAPHIC] [TIFF OMITTED] T2221.026
    
    [GRAPHIC] [TIFF OMITTED] T2221.027
    
    Chairman Stewart. Thank you, Dr. Dzombak.
    Our third witness is Mr. John Rogers, Associate Director of 
the Division of Oil, Gas, and Mining at the Utah Department of 
Natural Resources. Mr. Rogers manages the petroleum section 
that permits, monitors, and regulates oil and gas production in 
Utah. He has 15 years of experience in oil and gas exploration, 
reservoir analysis, and economic analysis of oil and gas 
fields. Mr. Rogers received his MS and MBA from Brigham Young 
University.
    Mr. Rogers.

                 TESTIMONY OF MR. JOHN ROGERS,

                      ASSOCIATE DIRECTOR,

                 OIL AND GAS, DIVISION OF OIL,

                        GAS, AND MINING,

              UTAH DEPARTMENT OF NATURAL RESOURCES

    Mr. Rogers. Good morning, Chairman Stewart, Chairman 
Lummis, and Members of the Subcommittee. As was stated, my name 
is John Rogers and I am the Associate Director of the Division 
of Oil, Gas, and Mining in the State of Utah. The division 
manages permitting, regulation, and monitoring of oil and gas 
drilling, Class II injection wells, and oil and gas disposal 
facilities in Utah. This includes hydraulic fracturing, which 
we have regulated for many years, which is the primary focus of 
this hearing.
    Hydraulic fracturing has been an operational practice for 
completing and stimulating oil and gas wells in Utah since the 
early 1960s. In all the historical records of the division, 
there has never been a verified case of hydraulic fracturing in 
causing or contributing to contamination of water resources. 
The division has always had very stringent rules concerning 
wellbore construction and the protection of water resources.
    However, to make the process of hydraulic fracturing more 
transparent and alleviate the recent public fear of hydraulic 
fracturing, the division has adopted a formal hydraulic 
fracturing rule in October of 2012. This rule combined many of 
the division's current existing rules concerning overall best 
management practices for oil and gas production as related to 
safe and efficient operations, as well as public disclosure of 
chemicals used in the hydraulic fracturing process.
    There are three major concerns that have come to the 
forefront concerning hydraulic fracturing. The BLM has 
presented these in their proposed rule and Utah has addressed 
them historically and with their current new rule. The first is 
provide public disclosure of chemicals used in hydraulic 
fracturing; secondly, include regulations to ensure wellbore 
integrity; and third, to address issues related to flow-back 
water.
    First, public disclosure, the Utah rule requires operators 
to report to fracfocus.org within 30--within 60 days of 
completion of a hydraulic fracturing operation of the chemicals 
used in this process. The primary purpose of fracfocus.org is 
to provide factual information concerning hydraulic fracturing 
and groundwater protection. FracFocus is a national hydraulic 
fracturing chemical registry accepted by both industry and 
government. It is managed by the Ground Water Protection 
Counsel and the Interstate Oil and Gas Compact Commission, two 
organizations whose missions revolve around conservation and 
environmental protection.
    The site was created to provide the public access to 
reported chemicals used for hydraulic fracturing at specific 
well sites. To help users put this information into 
perspective, the site also provides objective information on 
hydraulic fracturing, the chemicals used, and the purpose they 
serve, and the means by which groundwater is protected. This 
reporting process that the division uses is also the same 
method proposed by the BLM rule.
    Secondly, wellbore integrity, existing rules were already 
in place to ensure wellbore integrity and construction. This 
includes detailed rules on casing and cementing programs, 
blowout prevention and uncontrolled flow, protection of 
freshwater aquifers, and casing pressure tests.
    Utah's hydraulic fracturing rule emphasizes the use of 
already existing rules that have managed oil and gas production 
in Utah for many years. The regulatory process of the division 
are effective in ensuring the responsible development of Utah's 
resources with due regard for and protection of the 
environment. This begins with wellbore integrity. The staff at 
DOGM, which we refer to the Division of Oil, Gas, and Mining, 
has local knowledge and expertise to address the technical and 
scientific challenges proposed by Utah's unique geology and 
geography.
    Onsite inspections of oil and gas wells are a key component 
of the division's regulatory program. All wells drilled on the 
site, on the State or private lands in Utah are subject to 
rigorous inspection programs that include inspection and 
witnessing of well-control equipment, casing and cementing 
operations, follow-up to third-party complaints, and general 
compliance verification. In 2012, 8,983 such onsite inspections 
were performed by the division.
    Finally, management of flow-back water and service 
protection, the division rule states the operator shall take 
all reasonable precautions to avoid polluting lands, streams, 
lakes, reservoirs, natural drainages, and underground water. 
Prior to any drilling operation, all drill sites have onsite 
inspections and are analyzed for surface conditions and best 
practices are employed to prevent any contamination of surface 
water or groundwater.
    The division's board has recently approved a new rule July 
1, 2013, entitled ``Waste Management and Disposal.'' These 
rules update methods and restraints for disposal of RCRA-exempt 
waste from oil and gas production. This would include the 
management of hydraulic fracturing fluid flow-back.
    Utah's production water is disposed of by two methods. The 
first is underground injection wells, which 94 percent of the 
water is included into those injection wells, which we have a 
primacy from the EPA; and secondly, evaporative disposal ponds. 
These are in very detailed rules and controlling these disposal 
ponds, and so between those two methods, we feel we control the 
surface and subsurface.
    Finally, I believe our Federal and state interaction with 
the division has worked very well with Federal agencies with 
concerns spacing, flaring, and split estates. However, there 
has been no collaboration concerning hydraulic fracturing. The 
division believes that a statewide standard is defined by the 
divisions hydraulic fracturing rule would be beneficial rather 
than several regulations, as proposed.
    Those are my statements.
    [The prepared statement of Mr. Rogers follows:]

    [GRAPHIC] [TIFF OMITTED] T2221.028
    
    [GRAPHIC] [TIFF OMITTED] T2221.029
    
    [GRAPHIC] [TIFF OMITTED] T2221.030
    
    [GRAPHIC] [TIFF OMITTED] T2221.031
    
    [GRAPHIC] [TIFF OMITTED] T2221.032
    
    Chairman Stewart. Thank you, Mr. Rogers.
    And I am sure, like you, both of us look forward to getting 
back to our beautiful State. So thank you for being with us 
today.
    Our final witness then is Dr. Rahm. Dr. Brian Rahm is a 
post-doctorate associate at Cornell University's Department of 
Earth and Atmospheric Studies in New York State Water Resources 
Institute. Dr. Rahm is engaged in education and research of 
shale gas development on water resources and waste 
infrastructure. He previously worked in New Zealand engaging in 
climate change policy analysis. Dr. Rahm received his Ph.D. 
from Cornell University. Dr. Rahm.

                  TESTIMONY OF DR. BRIAN RAHM,

              NEW YORK WATER RESOURCES INSTITUTE,

                       CORNELL UNIVERSITY

    Dr. Rahm. Good morning and thank you for inviting me to be 
a part of this discussion.
    My name is Brian Rahm and I work for the New York State 
Water Resources Institute at Cornell University. My job is to 
develop understanding of unconventional gas extraction and its 
interaction with and impact on water resources. My goal is to 
act as a neutral source of information to the public--people 
are very excited in New York about this activity--and to 
policymakers at local, state, and Federal levels. I have 
therefore been following EPA's investigation with interest from 
a New York perspective.
    Unconventional gas development, not just hydraulic 
fracturing per se, involves multiple activities that can and do 
impact water resources. We know accidents happen. Accidents 
present risks and have impacts. Figure 2 of my written 
testimony shows the prevalence of violations issued by 
Pennsylvania Department of Environmental Protection to 
unconventional gas operators over the last few years. Spills of 
various kinds, often of waste fluids, occur relatively 
frequently. Many of these spills are small and contained. Less 
frequently, they are larger and pose risks to nearby surface 
and ground waters.
    Apart from accidents, we also know that cumulative impacts 
are possible. Cumulative impacts result from multiple 
individual events occurring across the landscape. For example, 
waste fluids need to be treated if they are to be discharged. 
Waste from a single well might be diluted or treated, but if 
waste from dozens or hundreds of wells is discharged, negative 
impacts can occur. This is true even when single activities are 
conducted within established rules and regulations.
    A study in the proceedings of the National Academy of 
Sciences, which I have here, observed elevated salt 
concentrations in rivers downstream from treatment facilities 
accepting unconventional gas waste in Pennsylvania over the 
last decade.
    What role do the EPA investigations play? The EPA 
investigations in Pavillion, Dimock, and Parker County can 
address the complaints that prompted them and demonstrate 
responsiveness to the community. They can determine if 
contamination is present and if there is an immediate risk to 
environmental or public health. They can also provoke thinking 
and discussion as the Pavillion investigation did for me on the 
following points: 1) Design and scope of research into gas 
development impacts needs to be carefully thought through, 
adhered to, and communicated; 2) regional differences matter. 
Geology practices and policy can vary by State and by gas play; 
3) critical issues to acknowledge, discuss, and plan for 
include the management of waste fluids, the management of well 
integrity via casing and cementing, and the disclosure of 
chemical additives; and 4) oversight of both gas and water well 
construction is needed when target formations contain aquifers. 
A more complete commentary can be found on our website.
    An equally important question regarding these 
investigations is what can't they do? They cannot act as risk 
assessments of water resource impacts from gas development 
accidents in general. This is because investigations occur 
within the context of specific geological, historical, and 
regulatory conditions. These also cannot address the risks 
presented by cumulative impacts. Broad risk assessments that 
incorporate cumulative impacts need data on a regional or 
national scale and not just from places where complaints have 
been lodged or where contamination has occurred. It is just as 
important to know when things go right as it is to know when 
things go wrong.
    From what I understand of the ongoing EPA study of the 
potential impacts on drinking water resources, they are asking 
many good questions. It is a welcome response to the need for 
assessments able to identify a set of shared and/or cumulative 
risks that transcend local conditions and that are beyond the 
purview of any single operator or state agency to manage. I am 
looking forward to the results of their studies.
    One big study, however, does not mean we will have perfect 
answers. No single study can do that. The nature of research is 
to build understanding through repetition and consensus. This 
requires patience and willingness to adapt to new information. 
Lack of perfect information doesn't mean that activities should 
stop but, like other activities that pose risks to water 
resources, treatment and discharge of sewage, for example, 
unconventional gas development does require oversight to 
minimize risk.
    What does this mean for the regulation of shale gas in 
states and the country as a whole? What is clear to me anyway 
from the EPA investigations is that local characteristics will 
vary. This suggests that states should continue to be the 
leaders in day-to-day regulation since state agencies are most 
familiar with local conditions. Indeed, many states already 
regulate gas development like Utah to varying levels and 
stringencies. This is explored in detail in a recent Resources 
for the Future study, part of which I have included as figure 3 
in my testimony.
    That being said, the need for broad assessment of some 
risks, along with cumulative impacts that we know can happen, 
means that a broad examination and perspective is needed. In 
response to these general risks and cumulative impacts, it may 
make sense to establish basic standards at the regional or 
Federal level.
    In closing, we should be working thoughtfully toward 
understanding both the benefits and the risks of our energy 
choices and how they interact with our valuable water 
resources. To not know the benefits and risks of unconventional 
gas development while the activity is new is fair enough. We 
have not had time to fully understand, but it is my hope we can 
continue to learn through research, experience, and dialogue so 
we increase our energy and water resource literacy in the years 
to come.
    Thanks for this opportunity. I am happy to take questions.
    [The prepared statement of Mr. Rahm follows:]

    [GRAPHIC] [TIFF OMITTED] T2221.033
    
    [GRAPHIC] [TIFF OMITTED] T2221.034
    
    [GRAPHIC] [TIFF OMITTED] T2221.035
    
    [GRAPHIC] [TIFF OMITTED] T2221.036
    
    [GRAPHIC] [TIFF OMITTED] T2221.037
    
    [GRAPHIC] [TIFF OMITTED] T2221.038
    
    [GRAPHIC] [TIFF OMITTED] T2221.039
    
    [GRAPHIC] [TIFF OMITTED] T2221.040
    
    [GRAPHIC] [TIFF OMITTED] T2221.041
    
    [GRAPHIC] [TIFF OMITTED] T2221.042
    
    [GRAPHIC] [TIFF OMITTED] T2221.043
    
    [GRAPHIC] [TIFF OMITTED] T2221.044
    
    [GRAPHIC] [TIFF OMITTED] T2221.045
    
    Chairman Stewart. Thank you, Dr. Rahm.
    I recognize that each of you have written testimony and 
that will be included in the record after this hearing. And 
then I also review that for the members of the panel will each 
have five minutes to question members of the panel of 
witnesses. And I now recognize myself for five minutes as the 
Chairman.
    There are a couple things that I would love to talk with 
each of you about, and I want to go strategic rather than 
tactical. Dr. Hauchman and Dr. Dzombak, I appreciate your 
testimony, but I want you to know that I disagree with you on 
some of the elements of it. And I don't believe the Agency has 
been responsive. I believe the evidence supports this concern 
that I have. And I hope you understand that it is not helpful 
for us in trying to develop a working relationship when we feel 
like you are not being responsive and honoring the charter that 
we have in order to provide answers to this Committee regarding 
some of these, what we think are very, very important issues.
    But putting that aside, again, I would like to talk about, 
you know, kind of the bigger picture on some of these elements. 
And, Dr. Hauchman, let me begin with you if I could, just 
quickly. And I don't think we want to discuss this for a long 
time, but I would like you to respond to this.
    I mentioned in my opening statement the EPA's experience in 
Wyoming, Texas and Pennsylvania where, in my opinion, they 
clearly put the politics ahead of the science in some of these 
public statements that they made and then had to withdraw and 
to backup from some of those. And I would just ask can you see 
how this episode makes Congress and frankly the American people 
skeptical of EPA's willingness to be fair and unbiased in these 
studies as they try to draw these connections between any 
fracking activity and pollutants in groundwater?
    Dr. Hauchman. Thank you for your question, Congressman 
Stewart. I appreciate the nature of your question. My focus is 
on the drinking water study. And I stand here--I sit here with 
confidence in telling you and assuring you that we are 
conducting a rigorous study that will be following all 
appropriate procedures.
    Chairman Stewart. And I appreciate that, but can you see 
how with the previous experience that that there would be some 
people that would be skeptical of that?
    Dr. Hauchman. I appreciate your comment. Yes.
    Chairman Stewart. Okay. Thank you. Let me, if I could, 
maybe, Mr. Rogers, if I could ask you to respond. I was an Air 
Force pilot for many years and before we flew a mission or 
before we trained in our training or whether those who actually 
fly in combat, you analyze the threat, you try to measure those 
threats, you try to analyze which are the most important, which 
are the most critical, and you try to mitigate those. And then 
you go fly the mission. And if we had a threat matrix where we 
had to eliminate every possible threat, then we would simply 
never fly.
    And I think that there is a parallel to some of the 
language or some of the intents of this study and that is EPA 
searching for what is possible without paying attention to what 
is probable or what is likely. For example, the primary goals 
of the study is to answer such question as what is the possible 
impacts of hydraulic fracturing fluid surface spills on or near 
well pads or drinking water resources, again, looking at every 
conceivable possibility and not measuring those or attaching a 
matrix to those that are much more likely? And I guess I would 
ask is a mere possibility of an event occurring sufficient to 
justify a regulatory action?
    Mr. Rogers, again, I would appreciate your opinion on that.
    Mr. Rogers. I think that any activity you take has risks 
whether it be flying in an airplane, driving a car. There is 
always a risk involved. Therefore, I think hydraulic fracturing 
has a risk. There could be a possibility but I think we need to 
quantify that, put a number on that, and find out what exactly 
that risk is.
    For example, in the State of Utah, we have done a study 
where we have measured in our oil-and-gas producing area, the 
Uinta basin, where the depth and moderately saline water, any 
water that could possibly be used. So when we know where that 
is, we put casing, we cement down to that level below it so 
that we know that we are protecting that. Could something 
happen? Possibly, but most likely no because we have gone, we 
have analyzed, and we have addressed the risk and we think the 
risk has been minimized if not just by the application of good 
science.
    So I think what your statement is true that there always is 
an opportunity that something could happen but I think you need 
to quantify that and put a real number on that on what the 
reality of that happening.
    Chairman Stewart. All right. Thank you.
    Dr. Hauchman and Dr. Dzombak, will you reply to that? I 
mean in your study are you doing a quantitative analysis and 
attaching a quantitative measure to these risks and helping the 
readers of this study understand that some of them are 
significantly less risk than others or do you treat most of 
them as if they are equal?
    Dr. Hauchman. I will respond first. As we have stated, this 
study is not a quantitative risk assessment. We are focused on 
the research questions and we feel that by answering these 
questions, we will have information that will be very useful.
    But I want to be clear that we are not simply producing a 
report that will have a statement that says it is possible or 
it is not. We are doing a robust, a thorough analysis of the 
available literature. We have requested information from the 
public, from all the different sectors, and any findings or 
conclusion we make will be made in proper context. They will be 
made with attention to the quality of the information and so 
forth. So I am confident that this will be a very useful 
report.
    Chairman Stewart. And again, I just want to make sure I 
understand. But you will not attach a quantitative assessment 
to each of these concerns that the study will address?
    Dr. Hauchman. It has not been our intention to design this 
study to develop a quantitative risk assessment.
    Chairman Stewart. Okay. Do you view that as a weakness in 
the study?
    Dr. Hauchman. I would say it would be highly desirable to 
have, as was very elegantly stated by Dr. Rahm, the perfect 
study, but that doesn't discount the value and I would say a 
very high value of the study that we are conducting.
    Chairman Stewart. And I agree that there is value in the 
study but I also agree with you that it was--it is not ideal, 
and in fact in some ways it may be far from ideal because of 
that lack of a quantitative assessment.
    But my time is expired. I now recognize Mr. Swalwell for 
his 5 minutes.
    Mr. Swalwell. Thank you, Mr. Chair. And as I alluded to 
earlier, in my home State in California, we are beginning an 
expansion of fracking for shale gas that may create an economic 
boom for the State. But one of the main concerns that I hear 
from my constituents and scientists in my community is the 
concern that fracking can be tied to and cause induced 
earthquakes tied to the disposal of the wastewater produced 
after fracking. And based on reports of a recent internal study 
on the issue, my understanding is that the EPA is now 
considering recommendations for states on how to avoid the 
possibility of induced seismic activity from these injection 
wells.
    So, Dr. Hauchman, the study described in your testimony 
will look at the treatment of wastewater prior to disposal, is 
that correct?
    Dr. Hauchman. We will be looking at the treatment of 
wastewater prior to disposal, that is correct.
    Mr. Swalwell. And is the EPA examining deep well injections 
to reduce or avoid the possibility of induced earthquakes?
    Dr. Hauchman. That particular aspect of disposal is not 
within the scope of the study. We are focused on the--examining 
the potential association or impact on drinking water 
resources.
    Mr. Swalwell. Are you familiar with any EPA studies that 
would deal with induced earthquakes?
    Dr. Hauchman. Any EPA research studies? No, I am not.
    Mr. Swalwell. Okay. Is that something that concerns you 
that perhaps we should be looking at that area?
    Dr. Hauchman. Well, this is certainly a concern that we 
have heard from many stakeholders, and as you mentioned, the 
EPA has developed or is developing a set of guidance--steps 
being handled out of the regulatory office in coordination with 
the U.S. Geological Survey.
    Mr. Swalwell. In California, we are also continuing to 
experience droughts and they are common in many places 
throughout the State, and local officials have been 
implementing water conservation measures just to conserve 
adequate drinking water supplies during certain times of the 
year. Still, fracking requires large, large volumes of water to 
successfully release shale gas.
    Dr. Rahm, in your written testimony, you note that states 
should take into consideration different regional--take into 
consideration regional differences to determine best practices, 
which, of course, I think makes sense. As I mentioned earlier, 
what may be good for State A may not be good for State B. But 
to be a little bit more specific, are you saying that states 
should consider the relationship between the scale of fracking 
operations and the impacts on local drinking water supply?
    Dr. Rahm. I would say that is fair, that the scale would be 
important in terms of determining when--where certain water 
sources should be used for hydraulic fracturing. I guess I 
would point out an example of the Susquehanna River Basin 
Commission as a regional body that has the authority to 
regulate water withdrawals in multiple states. They have a 
policy for how they determine when the flows and the streams 
and rivers are high enough and, you know, when and where the 
companies, which need a permit to do so, can take water from 
those streams and rivers. And I think it works out pretty well. 
It involves environmental protection but at the same time the 
companies are allowed to take the water from the streams. So 
everybody seems relatively happy in that situation.
    Mr. Swalwell. Dr. Hauchman, can you tell us whether your 
study will make recommendations relevant to State policymakers 
so they can make informed decisions about the appropriate scale 
of operations, particularly near active fracking sites that we 
have in California?
    Dr. Hauchman. Thank you for your question. It is not the 
intent of the study to make recommendations specifically. What 
we are doing is developing some scientific perspectives on the 
issue.
    Mr. Swalwell. And, Dr. Hauchman, how has the EPA engaged 
industry stakeholders to ensure that the Agency stays current 
on data and advances in technology as the study plan has 
progressed?
    Dr. Hauchman. Thank you for your question. It is a very 
important one and we have heard that from a number of our 
stakeholders about the importance of this particular issue. We 
have, from the very beginning of this study, been reaching out 
to stakeholders and sticking strictly to the technical aspects 
of the study. We have had numerous roundtables and workshops. 
In 2011 we had a series of technical workshops where we invited 
in experts from industry, from nongovernment organizations, 
from academia, et cetera, to work with us to exchange 
information. I was able to attend one of those meetings and it 
was excellent. It was highly collegial. It was sticking to the 
science. There were no policy discussions at all. That is the 
nature of the discussions we had in 2011.
    We have had roundtables with a range of stakeholders 
focused on technical issues in 2012, and we are completing 
another round of technical workshops this particular year. And 
I will add one other item. We have been reaching out in a 
variety of ways to make sure we are current on innovations in 
technology and other developments. We have just extended the 
public in the federal register the period for receiving 
information and data from the public on anything related to the 
technical aspects of the study, and we are very much interested 
in receiving whatever can be provided.
    Mr. Swalwell. Great. Thank you, Dr. Hauchman. Thank you, 
Dr. Rahm. And I yield back.
    Chairman Stewart. Thank you, Dr. Swalwell.
    The Chair now recognizes the Chairwoman of the Subcommittee 
on Energy, my friend from Wyoming.
    Chairman Lummis. Thank you, Mr. Chairman.
    And before I start my questions, I want to tell you a story 
about why I think this is so important. I am a rancher in 
Wyoming, grew up next to a refinery, ranched right next to an 
oil refinery. And over a period of time the migration of 
hydrocarbons off that refinery property and onto our ranch and 
into our water that our cattle drink and that we irrigate with 
became terrible. So under RCRA, the EPA dealt with the 
refinery, entered an Order on Consent, and required the 
refinery to clean it up.
    And for 17 years that refinery did not turn a shovel to 
meet the requirements of that Order on Consent. And we had to 
fight as the neighboring ranchers to try to get the enforcement 
of the consent order with our own money while our own land was 
being polluted by this refinery.
    So I was grateful when the EPA stepped in and helped us. 
Without the EPA stepping in and helping us, we never would have 
gotten it cleaned up. So it is unusual for a constitutional 
conservative Republican to want to be an advocate and thank the 
EPA. Okay. Full stop.
    I come out here. EPA's science is so bad when it comes to 
Pavillion, Wyoming, that it has embarrassed me as a previous 
defender of the EPA. It humiliated and destroyed a lot of 
opportunities for fracking by industry in Wyoming. We have a 
very sophisticated, world-class oil and gas industry in Wyoming 
because we are such an enormous producer, and to have that kind 
of science released as a draft study when it was so faulty that 
it was probably the EPA itself that polluted the wells when 
they did the tests. It just completely shattered my ability as 
a Republican who is trying to defend the EPA. I can't do it 
anymore. You destroyed my ability to be a defender.
    So, Dr. Rahm, when you said Pavillion made you think, I 
will tell you Pavillion was a big lie. I believe that it was 
leaked to the New York Times so they could sensationalize it so 
it could be used as an excuse by the EPA to regulate and to 
scare people and to make Wyoming look bad.
    And so I am angry with the very agency that I came here 
with difficulty trying to defend as a Republican. I can't 
defend it anymore.
    Okay. Given that scenario, Dr. Hauchman, shouldn't you wait 
until any decisions on the merits of regulatory actions, until 
after the study is complete? I mean you are kind of getting the 
cart before the horse when you throw out a bad study, 
completely tainted, then say, oh, we need to regulate but we 
will do a longer study and it is going to be credible this 
time. So why not wait? Why not regulate--wait until after the 
study is done that can be peer-reviewed and can be blessed as 
credible and then decide whether to regulate?
    Dr. Hauchman. Thank you for your question, Chairman Lummis.
    First of all, I do want to state that I respectfully do not 
agree with your statements about the quality of EPA's science.
    But having said that, we were charged in the Office of 
Research and Development of conducting this study, and that is 
exactly what we are doing with attention to all the appropriate 
scientific policies, protocols, and procedures. What we do in 
the Office of Research and Development is of course related to 
but distinct from the activities of the regulatory arm of EPA.
    Chairman Lummis. So--
    Dr. Hauchman. So----
    Chairman Lummis. But--so why wouldn't the EPA's regulatory 
arm wait until--whether the science is good or not--I hope it 
will be. I hope it will be. That said, why don't--why isn't the 
regulatory arm waiting until the science is available?
    Dr. Hauchman. I am not able to respond to that question. I 
would be happy to get back to for the record.
    Chairman Lummis. Thank you. I yield back, Mr. Chairman.
    Chairman Stewart. We would look forward to your response on 
that, Dr. Hauchman. All right. Thank you, then. Thank you, Mrs. 
Lummis.
    The Chair now turns to Mr. Takano from California.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Rahm, could you comment briefly on the charge that the 
Pavillion study was somehow bad science or flawed?
    Dr. Rahm. I don't necessarily have a comment because I am 
not an expert in drilling wells according to some of the 
allegations about what made that study good or not good. I 
think what I would want to say maybe as a third-party observer 
of that study, I don't think the intent of the study, as 
stated, was to make a statement about hydraulic fracturing, 
though some speculative comments were concluded at the end, 
which you--I think are debatable, given the evidence.
    I think it was a very limited study. And I think that it is 
useful to see the results that people publish and to 
potentially use those results in the context of other results 
that may be available. And to that extent, I think those 
studies can be valuable.
    And again, like I said, they made me think about issues 
that may be important. Whether or not that proved one thing or 
the other, it at least brought to the discussion some things 
that we thought were important in New York. So I thought it was 
valuable in that way.
    But as far as whether or not it was good science, I think 
it was--there were some results and that I think a lot of the 
conclusions were very--were debatable and a lot of science 
works that way.
    Mr. Takano. Help me understand. I am very much a layman 
myself in this area. Is there enough research, body of research 
to really design any kind of quantitative risk assessment I 
mean in a broad sense? I mean are we at that point yet? It is a 
relatively new industry.
    Dr. Rahm. So I am not necessarily an expert on risk 
assessment. I am more of an expert on water resources. But I 
think that it is difficult in the sense of some of my earlier 
comments, conditions vary from location to location, and so if 
you are doing--if you are getting, for example, results in 
Pavillion, whether they are good or not, they may or may not be 
relevant at all to what is happening in New York or 
Pennsylvania for that matter.
    And so I think it is difficult because conditions change 
over time, and what I would say is that I am in support of more 
study and research and data that we can get on these questions, 
the better, because I think we will hopefully be able to 
identify whether or not there are some of these shared risks 
that might be relevant everywhere regardless of what the 
conditions are and that we might have a better sense of when 
these conditions change, are there--how do conditions change 
from State to State or from place to place that might be 
relevant for what the risks and the benefits might be.
    Mr. Takano. Thank you. Dr. Hauchman, would you have 
anything to say about the state or the progress we have made in 
understanding hydraulic fracturing to the point that we can 
really establish quantitative risk assessment evaluations?
    Dr. Hauchman. I would tend to agree with Dr. Rahm on this 
point that we are relatively early in terms of the peer-
reviewed literature, which we rely upon quite heavily for 
conducting quantitative--rigorous quantitative risk 
assessments. There is new information that has been 
forthcoming. We are, as we speak, pulling together a lot of 
information that will be very informative. But again, the 
quantitative risk assessment is relying upon quite an amount of 
information and we are--in my perspective at least, we are not 
quite there yet.
    Mr. Takano. So you would--was it fair to say that our 
knowledge is fairly formative at this point I mean as far as 
what we know about hydraulic fracturing?
    Dr. Hauchman. Well, I think there are many things we do 
know about hydraulic fracturing with respect to the technology, 
with respect to geology and so forth, a lot of the technical 
issues that we are in fact looking at. But in terms of putting 
the information together to answer the types of questions that 
we are asking I would say we still are in a developing stage.
    Mr. Takano. Thank you. Dr. Dzombak?
    Dr. Dzombak. I would just comment that the Science Advisory 
Board is providing peer review for this study and to Chairman 
Stewart's point on risk assessment and yours, this was a 
question that was--the question of how far to go in risk 
assessment was a question that was raised in both the review of 
the study plan and in the consultation for the progress report. 
And our members of the panel--both panels queried the ORD 
project leaders about that.
    And I would note that the studies arw being conducted in a 
risk framework, there is not performance of a quantitative risk 
assessment group that is really a site-specific activity.
    Mr. Takano. Um-hum.
    Dr. Dzombak. But in terms of understanding the sources, 
understanding the transport that could occur from the sources, 
understanding potential impacts, that is all in a risk 
assessment framework. Our panel members ask very pointed 
questions about that of the Office of Research and Development, 
and they committed to in the final report putting the various 
components of the study in a risk framework. And that will be a 
quantitative risk assessment but I would argue the entire study 
is in a risk framework, and that will not--the ORD is committed 
to make that clear in the final report.
    Mr. Takano. All right. Thank you, thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Mr. Takano.
    We now turn to Mr. Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    You said the EPA had been guilty in your opening statements 
of putting the regulatory cart before the scientific horse, and 
I think Chairman Lummis probably echoed that.
    Dr. Hauchman, I want to ask you a couple of questions. 
State impact--a state impact NPR article on July 3, 2013, not 
necessarily your most conservative Republican group, NPR, 
stated that to the effect that the EPA had withdrawn from a 
number of areas, the Pavillion case, of course I am from Texas, 
the Texas case, the Pennsylvania case. After a multimillion 
dollar--I would call it investigation--I don't think that is 
the word they used--study, whatever, are you privy to the exact 
numbers of taxpayer dollars spent on those three studies before 
the EPA began to backtrack?
    Dr. Hauchman. Thank you for your question. I am not able to 
respond with figures. This was an investigation that was led by 
the EPA regional office in Denver, and I was not part of those 
discussions.
    Mr. Weber. Do you have any knowledge--does the EPA ever 
consider the impact on industry by creating a nightmare of 
legal loopholes--legal maneuvers they have to make and the 
amount of industry it holds up and the jobs it kills? Are you 
all--does anyone in the EPA to your knowledge take that into 
consideration?
    Dr. Hauchman. I am quite confident that there is a thorough 
consideration of the implications of any decisions that come 
out of the EPA. I am not part of that particular part of the 
Agency in terms of the policy, but yes, I think that there is 
consideration given to impacts.
    Mr. Weber. So you don't deal with policy per se?
    Dr. Hauchman. I do not. I am not part of the policy 
offices, that is correct.
    Mr. Weber. Right. And how long have you not been part of 
the policy offices?
    Dr. Hauchman. I started my career as a risk assessor in the 
Office of Air and Radiation many, many years ago.
    Mr. Weber. Um-hum.
    Dr. Hauchman. But since that time, I have been part of the 
science arm of the EPA.
    Mr. Weber. Okay. I have an article from Inside EPA quoting 
you as saying, ``we are doing a pretty comprehensive look at 
all the statutes trying to find holes to allow additional 
regulations'' in March 2012. Did you make that comment?
    Dr. Hauchman. Congressman Weber, excuse me, I am very happy 
to have this opportunity to clarify that comment.
    Mr. Weber. Good, that is why you are here.
    Dr. Hauchman. I am glad to have this opportunity to provide 
clarification. This was a statement that appeared in the 
newsletter, Inside EPA. It was taken out of context. I stated 
at the beginning of my talk, which was on the study, that I was 
with the Office of Research and Development. I reiterated this 
point in the brief comments I made about the various other 
activities in EPA. I specifically stated that I was not part of 
the policy arm of EPA, and I directed the audience to the EPA 
website to get an understanding of the variety of activities 
that we are conducting as an agency under the various statutes.
    Mr. Weber. Okay. So you do make some policy determinations 
it sounds like.
    Let me jump over to Dr. Rahm for just a minute. Dr. Rahm--
and I don't want to put words into your mouth--I believe that 
you said fracking and unconventional drilling practices can and 
do impact water sources in your comments.
    Dr. Rahm. Yes, sir.
    Mr. Weber. Specific examples?
    Dr. Rahm. Well, again, I think we have from--looking at 
some of the violations and incidents happening in Pennsylvania, 
we see, for example, spills on sites, again, many of them very 
small, commonplace, it could be you spill a gallon of diesel, 
or whatever it might be, construction--similar types of----
    Mr. Weber. Okay. That is where I want to go.
    Dr. Rahm. Okay.
    Mr. Weber. Do you think those small spills, accidental 
spills, justify millions of dollars of EPA activity and holding 
up industry and putting them in the courts?
    Dr. Rahm. I don't think I am in any position to make a 
claim about what--about the amount of money EPA should be----
    Mr. Weber. Well, they have already established that people 
in the scientific community can opine on policy here this 
morning, so don't be afraid. Do you think it justifies the 
amount of money spent?
    Dr. Rahm. I really don't want to make any comments about 
the amount of money spent.
    Mr. Weber. Okay.
    Dr. Rahm. I agree that policy----
    Mr. Weber. I got you. I am running out of time.
    Dr. Rahm. Yes.
    Mr. Weber. All right. You also said regional differences 
matter.
    Dr. Rahm. Sure.
    Mr. Weber. And then you also said states should continue to 
be the leaders.
    Dr. Rahm. I think that is right.
    Mr. Weber. Are you saying that one size policy doesn't fit 
all or are you yielding to the idea that states, particularly 
Texas--I am from Texas----
    Dr. Rahm. Um-hum.
    Mr. Weber. --has got the experience--who, by the way, 
produces more oil than the next four oil-producing states 
combined--have the experience--our TCEQ, we all want clean air 
and clean water--
    Dr. Rahm. Um-hum.
    Mr. Weber. --and a good environment, but we don't want to 
do it the--you know, we don't want to spend all this money, 
taxpayers' dollars, holding up the process to have the EPA 
backpedal after having spent multimillions of dollars in 
holding up industry and causing them to spill--spend 
multimillions of dollars. And by the way, that drives the price 
of gasoline up at the pump, okay. So when you said that states 
should continue to be the leaders----
    Dr. Rahm. Um-hum.
    Mr. Weber. --and that is based on your evaluation of how 
this--and you said in your comments that I think NYU--is that 
right?
    Dr. Rahm. Cornell.
    Mr. Weber. Cornell, thank you. I am sorry.
    Dr. Rahm. No problem.
    Mr. Weber. That you were to be impartial?
    Dr. Rahm. I am trying my best.
    Mr. Weber. I get that.
    Dr. Rahm. Yes.
    Mr. Weber. Unlike some others. But--did I say that out 
loud? So your impartial analysis end game is that the states 
really need to be the leaders?
    Dr. Rahm. I think that is fair. And I think it is fair to 
say that many states, particularly ones like Texas who have a 
long history of this type of regulation and activity, sometimes 
do a very good job of regulating and overseeing it.
    Mr. Weber. Thank you. I am aware of my time. Mr. Chairman, 
thank you. I yield back.
    Chairman Stewart. Thank you, Mr. Weber.
    We now return to our returning minority Ranking Member, Ms. 
Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you to the witnesses for your time here today and 
certainly for bringing your expertise. And even though I needed 
to leave briefly for votes and a markup, I assure you, I have 
read all of your testimony.
    Dr. Rahm, you state clearly in your testimony that the EPA 
should play a role in setting standards for states to follow 
and you identified some areas or issues that are common across 
the country. Can you please discuss why the country should 
adopt some minimum practices or standards and in what areas?
    Dr. Rahm. Well, and again, what I was getting at there is 
that if common risks and cumulative impacts are found, which we 
see--which we are seeing some evidence of, that we really 
should consider, for example, regional, interstate, or Federal 
basic standards. Again, these basic standards might be around 
such issues like chemical disclosure. They might be around 
issues of well casing and cementing, also, for example, 
wastewater management and treatment, all of which are very 
important issues.
    I think if basic standards were to be established, again, 
on an interstate, regional, and Federal level, many states 
would already meet or exceed those standards. And it is my hope 
that there would be a way that that would not be onerous to 
those states, but that is not my field.
    Ms. Bonamici. Thank you.
    Dr. Rahm. Yes.
    Ms. Bonamici. And I have another question. I want to ask 
you about something that was frequently mentioned this morning, 
and those are the three groundwater investigations. It is 
important that we try to understand the scope of those 
investigations at Pavillion, Parker County, and is it Dimock?
    Dr. Rahm. Dimock.
    Ms. Bonamici. Dimock. You state very clearly in your 
written testimony that these investigations were limited in 
design. In fact, you talk about how these were in response to 
unplanned events. So can you elaborate further on that because 
the way I looked at it these investigations were very different 
from the actual study that the EPA is doing. And I just want to 
clarify it in the record that--what these investigations were.
    Dr. Rahm. So yes, again, maybe just reiterating some of my 
written and oral testimony, I think these investigations had a 
very limited scope. If you were only to read, for example, the 
first page of the Pavillion investigation, it would claim that 
it was not the intent of the investigation to study hydraulic 
fracturing, for example. Now, on the last pages, they 
speculate--the authors of those studies do speculate perhaps 
more broadly, and again that is--that could be debatable. But I 
think that several of these studies were as a result of 
specific complaints, and my reading of some of these 
investigations--I am not familiar with the Texas case at all so 
I can't speak for that, but for Dimock and Pavillion, that 
specific complaints were made that the EPA was brought in to 
investigate.
    And I think they were capable of addressing those, but in 
terms of broader questions and the ideas of risk assessments 
that we have been talking about today, I don't think those 
investigations were capable of addressing those types of 
issues.
    Ms. Bonamici. Thank you very much.
    And, Dr. Hauchman, do you agree with that statement about 
the limited nature of those investigations?
    Dr. Hauchman. Thank you for the question. I do agree. These 
were investigations that were led by the regional offices of 
EPA for very specific purposes, and they are distinct from our 
study.
    Ms. Bonamici. And they were--just to follow up--more in 
response to complaints from individuals or----
    Dr. Hauchman. That is correct.
    Ms. Bonamici. --requests from individuals to investigate a 
particular situation?
    Dr. Hauchman. That is exactly correct.
    Ms. Bonamici. Dr. Hauchman, after reading your testimony 
and the stages of the fracking water cycle that the study 
covers, I recognize that there is a considerable amount of 
analysis related to the use of chemicals, groundwater 
evaluations, geological and surface evaluations that will all 
take a considerable amount of time and data. So how much is the 
EPA depending on the industry for access to data needed to 
perform these types of evaluations, and what steps are you 
taking or is the EPA taking to be assured that the industry is 
providing the EPA with the full scope of relevant data? And I 
was interested to hear Mr. Rogers talk about how in Utah all 
the chemicals are disclosed on a website. So can you talk a 
little bit about how you are dealing with proprietary claims by 
industry and whether you are taking steps to assure that you 
have the full scope of the relevant data?
    Dr. Hauchman. Yes, thank you for your question. We are 
conducting a very robust evaluation of all available 
information, regardless of where it comes from. We have a set 
of criteria that we are using and applying to ensure that the 
data are usable, that they are sound, that they do their best. 
We will characterize uncertainty to the extent possible.
    We are working closely with industry. For example, we have 
had a number of meetings, conversations with them about the 
FracFocus database, which we are using. We are evaluating as 
much information from that database and other sources. We are 
also very mindful of the issue of confidential business 
information, and that is another example of where we have been 
working closely with industry to assure them that that 
confidentiality will not be compromised. However, we want to be 
able to use as much information as we can, staying within the 
rules with respect to the confidentiality.
    Ms. Bonamici. Thank you very much. And I see my time is 
expired. I yield back. Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Ms. Bonamici.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing and simulating a national 
discussion on fracking, as well as the whole concept of 
regulation and of energy, et cetera.
    You know, over the years, it hasn't been hard to see that 
many people who are engaged in environmental and, say, energy 
policies have been motivated by whatever--for whatever reason a 
hatred of the oil industry. Now, let me just note that my 
family comes from dirt-poor farmers in North Dakota. I mean 
that is where we come from, but unfortunately, we aren't--there 
hasn't been any oil on our land unfortunately.
    But let's just note that those people that I have seen over 
the years who just have it in their gut where they don't like 
the oil industry, never give the oil industry credit for the 
fact that before we started using oil as a major source of 
energy, the health of our people was being affected 
dramatically by mountains of horse manure that were piling up 
in our urban areas. And our water was being polluted by that 
same source. By using animal energy, there was a price to pay 
for that. And the oil industry actually has helped give us a 
more healthful way of life for everyone who lives in an urban 
area.
    Also, we now are developed--you know, here we are, we are 
evolving, and we find that the government is here to protect 
us, and quite often, the government is there to protect us 
until we--you know, and protecting us to death. The FDA, for 
example, as we know, has such stringent protections that, quite 
often, there are many, many deaths that are related directly to 
keeping drugs off the market for years and then having that 
same drug approved and then saying, well, look, we are saving 
100,000 people this year because we have approved this drug 
while not even paying attention to the people that that drug 
was denied. So we can regulate people to death. We are doing 
that in our country in so many ways.
    Let's just note that--let me ask the panel. Is there a 
production or energy or transportation system that any of you 
know that is without risk? Can the panel come up with one that 
is without risk? Do you have any examples of a system of 
production of goods and services or energy or transportation 
that has had no accidents? Okay. You can----
    Dr. Dzombak. I will answer speaking for myself, 
Congressman--
    Mr. Rohrabacher. All right.
    Dr. Dzombak. --all energy sources and uses have impacts and 
risks, and as a society, we manage risks.
    Mr. Rohrabacher. Right. Okay. Well, how does fracking, 
which comes--how does fracking compare to those other sources 
of energy, coal, for example, or oil production in the more 
traditional way? How does fracking compare in terms of 
accidents and risk? Is it less risky or more risky than 
traditional drilling or mining for coal, et cetera? Is it--
maybe we could just give a short answer right down the line. Is 
it more risky or less risky than the traditional sources of 
energy?
    Dr. Hauchman. I understand the questions you are asking, 
and I would have to respond that we don't have the information 
to make that assessment.
    Mr. Rohrabacher. All right.
    Dr. Hauchman. I certainly don't have that information.
    Mr. Rohrabacher. Okay. Don't know. Yes.
    Dr. Dzombak. Don't know. I believe that is why we are 
studying it as a society.
    Mr. Rogers. Being both from mining and oil and gas, I would 
say that oil and gas is less risky than the mining activity.
    Mr. Rohrabacher. And how about fracking as a method of 
getting the oil? Is that less risky or more risky than 
traditional drilling?
    Mr. Rogers. My opinion is we have been doing fracking in 
the United States since 1940 and in Utah since the early '60s, 
so it is something that has not been--I see as a significant 
risk.
    Mr. Rohrabacher. Okay. Our men from Cornell?
    Dr. Rahm. I don't know--like the others, I don't know. But 
I might add that I think a lot of the data shows that some of 
the--you know the--perhaps the risky part of unconventional gas 
drilling is actually very similar to some of the risky aspects 
of conventional gas drilling, i.e., not necessarily per se the 
hydraulic fracturing but the drilling of vertical wells through 
groundwater tables. So--
    Mr. Rohrabacher. Let me just note----
    Dr. Rahm. --shared risks there.
    Mr. Rohrabacher. Let me just note that just from an 
outsider's point of view, it appears to me that much of what is 
happening to push for more regulation or push for let's look 
and try to find something as an excuse to stop this fracking, I 
think that is what we are experiencing. We are doing it not 
because there is a motive for there are so many people stepping 
forward in order to protect us, but instead what we have is a 
motive for those pushing more and more regulation and to look 
into this.
    The motive is to wean or to force the American people off 
of an oil and gas industry. And dependency on that is our basic 
source of energy. And that that motive is based on the idea 
that oil and gas is changing the climate of the Earth. And I 
think this all comes back to this and the safety things that we 
have to go through and the arguments we have to look at and--
are basically a product of those who are pushing for another 
motive rather than just safety. And it is very easy to see, and 
I hope that what we do is take an honest look at safety and--of 
the American people for this new thing that we are--new way of 
producing oil and gas and that we don't approach it based on 
trying to placate the desire of a fanatic group of people in 
our country who want to change our system because they believe 
that the climate of the Earth is being impacted by the fact 
that we drive automobiles.
    Thank you very much, Mr. Chairman.
    Chairman Stewart. Thank you.
    We now turn to Ms. Edwards.
    Ms. Edwards. Thank you, Chairman Stewart and Ranking Member 
Bonamici and also to our witnesses today.
    I appreciate that EPA is continuing its investigations of 
hydraulic fracturing. I think that the EPA's investigations are 
really critical to the Federal Government's responsibility to 
ensure that drinking water and groundwater across the United 
States remains safe. And I do understand the industry's 
concerns about the investigations and the regulations that 
accompany efforts to ensure that fracking is conducted safely, 
but I think it is paramount that these activities be conducted 
in a manner that does as little risk as possible, 
understanding, as our witnesses have said, that it is important 
for us to manage risk, but there is no reason for us to 
jeopardize the public safety and the safety of our groundwater 
and drinking water if we can help it. And so that is the spirit 
in which I look at the efforts of the EPA.
    And I don't think it is a negative point that the study in 
western Pennsylvania found that fracking chemicals didn't 
pollute the water. That is the job of the DOE and in that 
instance and the EPA to ensure that constituent concerns, 
community concerns, consumer concerns are addressed using the 
best possible science.
    Dr. Rahm mentioned in his prepared statement that that 
study is not conclusive and shouldn't be used to make 
inferences about fracking broadly. And I take that into 
consideration when I read all the testimony. I don't think it 
is highly unusual that EPA has a plan over a period of time 
which may seem lengthy to us to develop the study, conduct the 
investigations, peer review the investigations, and publish 
those studies. I think it is important for us to try to get 
this is as right as possible.
    As the former Ranking Member of the Subcommittee on 
Investigations and Oversight, I know--I can recall receiving 
testimony on the lack of disclosure on the chemical mixtures 
used in fracking and making sure that the industry is 
transparent. I think some states have tried to move in that 
direction but I would note that in my State of Maryland where 
these activities might be pursued in the western part of our 
State that there has been great resistance and I think even 
threats from some in industry that if our State regulates the 
industry more strictly than it wants, then it is going to pull 
out its economic activity. And I just don't think that is the 
way quite to do this. I would like to see a greater balance in 
what it is that the Federal role but ensuring that our states 
have the capacity to monitor the economic activities in the 
State.
    I just have really one question for Dr. Rahm because I 
understand that, as you have indicated, the individual 
investigations and studies that were conducted by EPA and other 
agencies can't conclude whether fracking is safe or potentially 
contaminate groundwater and that this is in part due to 
geological differences, among other reasons. And I wonder if 
that is even true within a State and within a--among various 
sites because I think it is important to know that.
    And in your written testimony you state that regional 
differences matter and local character has an impact on 
management strategies. And I wonder if you could discuss the 
current regional collaboration and benefits of the kind of 
partnership to inform an established best practices for 
identifying potentially harmful impacts of fracking while 
allowing states to unify their oversight.
    Dr. Rahm. I am not quite sure what your question is. Sorry.
    Ms. Edwards. The question is simply whether current 
regional collaborations and the benefits of those partnerships 
inform establishing best practices for identifying potentially 
harmful impacts on fracking while also allowing states to unify 
their oversight collectively, and that might be regionally.
    So, for example, in Western Maryland, is it important to 
unify those activities with what is going on in West Virginia, 
which is our neighboring State?
    Dr. Rahm. Sure. So I guess what that makes me think is 
that, you know, just to reiterate the idea that it is important 
to involve, I think, all stakeholders when it comes to the data 
and information that we are collecting. Just to maybe point out 
that industry and state agencies have a great amount of data 
and expertise that we should be using, that they are using, 
when it comes to looking at risks and impacts and assessing 
those.
    I don't know of many examples just personally of a regional 
sort of effort to try and put that data together, which, I 
think, is one of the things that we are really missing. There 
are a few instances, again, the Susquehanna River Basin 
Commission, which really only has authority over water 
withdrawal, just that one particular activity. And they do pull 
in--they do talk to industry and state agencies and I think you 
can see that when they have the right information from 
everybody, they can make smart decisions.
    But a lot of times I don't think we have--at least as far 
as I know, many other regional bodies that undertake that kind 
of exercise where they are putting all the different pieces of 
information together, and I think that would be valuable.
    Ms. Edwards. Thanks, Mr. Chairman. I am out of time.
    Chairman Stewart. All right. I thank you, Ms. Edwards.
    Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. I also want to thank 
Chairman Hall for allowing me to jump ahead in line here. I 
have got another meeting I need to run to. But all of you, 
thank you for being here today.
    Safe extraction of our vast domestic energy resources 
clearly is of paramount concern to policymakers and the public 
needs to trust the work that the states and EPA are doing to 
safely regulate these practices. Unfortunately, many of EPA's 
recent actions, I believe, have severely harmed the public 
trust necessary for the Agency to accomplish this core mission.
    Every weekend when I am back home I am forced to answer 
questions about an agency many see as running amok. Illinois 
just recently passed legislation to regulate hydraulic 
fracturing, and this was a long process leaving my State with 
some of the most strict rules and regulations for the practice.
    What worries me is how EPA appears to have ignored many of 
the State rules and best practices already in place. I know in 
2012 Battelle published a review of the EPA study plan which 
pointed out the lack of ``a description of the full extent of 
existing federal, state, and local regulatory requirements, 
standards, and guidelines, and industry best management 
practice frameworks that already apply to the unconventional 
natural gas production operations.'' Why isn't this information 
considered relevant to the report? And I would direct it to our 
EPA.
    Dr. Hauchman. Right. Thank you for your question. We are 
not conducting a review or an analysis of state regulations as 
part of the study. We are focused on answering the scientific 
questions, which of course could be informative. It is our hope 
and expectation that it will be helpful in that regard but we 
are not evaluating regulations as part of our study.
    Mr. Hultgren. And I don't know if we expect you to other 
than that many of them are working already and I think can be 
helpful in telling--in coming up to this. And I think it does 
become even more confusing. I hear it over and over again of 
conflicting regulatory mandates an appearance to us up here but 
also to our constituents back home that there isn't an 
understanding of what the states are doing, what local groups 
are doing that have been successful. And I think without a firm 
understanding of what regulations and protocols are currently 
in place, it is questionable how EPA can plan to assess the 
relationship between hydraulic fracturing and drinking water.
    Mr. Rogers, I wonder if you could discuss with just a few 
of what I am sure are numerous regulations in place in the 
State of Utah specifically applicable to hydraulic fracturing?
    Mr. Rogers. The most important would be the casing and 
cementing of a wellbore. We make a study of where that water is 
usable, how deep it is, and we make a definite ability in our 
permitting process to protect that water. And when that well is 
drilled, we go out there and we have witnesses see that that 
well is cemented correctly. Then we also do a pre-site before 
that well is even drilled. We go out there, we survey it, we 
look at it, depth to groundwater, depth to surface water. Are 
there drainages or issues? If something did get away from that 
site, how are we going to protect it, berm it up? So we look at 
it in great detail how we are going to do that. So that 
primarily is the well casing is the critical part.
    The flow-back is the second part that we manage. We have 
disposal rules that we use either injection wells or we have 
disposal ponds that are monitored regularly by our inspectors.
    Mr. Hultgren. So from your answer, to me it is clear there 
are numerous regulations in place already in the State of Utah. 
And would you also say that you believe those regulations are 
working and are accomplishing what they were intended to 
accomplish?
    Mr. Rogers. Yes, they are. Like I mentioned before, we have 
had fracking in our State since the 1960s with no incident, and 
I think our staff did an excellent job monitoring that. The 
thing we did add about a year ago was a disclosure rule. That 
is something we were lacking but that is something that we 
now--we have out there and it is working very well.
    Mr. Hultgren. Okay. Dr. Hauchman, the Battelle study also 
concluded that giving industries extensive experience and 
unique expertise in the process of hydraulic fracturing and 
associated technologies and its wealth of relevant data 
available to inform this effort, it is a weakness of the study 
plan and likely its implementation that significant industry 
collaboration is missing. Do you agree with this conclusion 
regarding the study's weaknesses?
    Dr. Hauchman. We do in fact recognize the value that 
industry can provide to this study. We have been going out 
extensively engaging our colleagues in industry with technical 
expertise, as well individuals from the states.
    And in fact I do want to clarify a comment that I made 
earlier in response to your question. We are, as I said, not 
looking at regulations but we are asking states for 
information. We are interested in any information, including 
technologies, anything that will help us answer the questions 
with any phase of our----
    Mr. Hultgren. Well, and I think that is very important. I 
only have 10 seconds left and I will wrap up with this, that I 
just want to encourage you. I do think there is a wealth of 
knowledge there from the states, some things that are 
absolutely working, have been working for decades, and also 
from industry. And I think it would be a huge mistake if EPA 
were not to look at this and hopefully embrace many of the 
things that are working rather than just saying you are going 
to do this alone and you are going to look until you find 
problems with it instead reaching out and finding what is 
working.
    With that, thank you, Chairman. Thank you, all of you, for 
being here. I yield back.
    Chairman Stewart. Thank you, Mr. Hultgren.
    And we turn to another Congressman from Texas, Mr. Veasey.
    Mr. Veasey. Thank you very much.
    I wanted to ask Dr. Hauchman specifically about data that 
EPA may have collected since 1970s on hydraulic fracturing. You 
know, a lot of the talk about hydraulic fracturing and the 
effects that it may have on groundwater and contamination have 
been pretty recent. You know, it wasn't something that you 
heard talked about previous to some of the discoveries and the 
Barnett Shale and what have you.
    What sort of data do you have on what hydraulic fracturing 
may do to groundwater previous, you know, or going back to the 
1970s?
    Dr. Hauchman. Thank you for your question. I do not 
personally know the answer to your question. I have not been 
scouring the literature for that very information, but we will 
in fact do just that as we prepare our report for 2014.
    Mr. Veasey. Okay. Good. Good. I think that having that may 
help clear up many of the conversations that we have here.
    And one of the other things I wanted to ask you, you know, 
really I mean to mitigate some of these concerns that people 
have dealing with groundwater and the environment and what have 
you, what recommendations have EPA made for what producers 
should do or what municipalities should do with this sort of 
new natural gas that many people are finding?
    Dr. Hauchman. I am not prepared to answer your question but 
be happy to get back to you with the answers--
    Mr. Veasey. Okay.
    Dr. Hauchman. --for the record.
    Mr. Veasey. Okay. Good deal. Good deal. And I wanted to ask 
the experts from Utah specifically. I believe it was Mr. 
Rogers. I wanted to ask you what sort of techniques, devices, 
you know, have you seen in the last couple years that would 
help mitigate some of the concerns that people have as it 
relates to these issues that we are talking about today dealing 
with hydraulic fracturing and contaminants that may be released 
into the environment?
    Mr. Rogers. Well, as I spoke earlier, we have a new rule, 
but the rules take into account things that we have been doing 
for years. Wellbore integrity, I think, is the most critical 
part of this so we ensure that that wellbore is designed 
correctly to protect groundwater. We also have tightened up our 
disposal rules so that any disposal, any kind of produced water 
is protected from the environment and they are looked at on a 
regular basis so we look at that.
    Mr. Veasey. Is there something that you feel that the 
industry can be doing to help with some of these concerns that 
may be costly and maybe some producers don't want to implement 
those safeguards just because they are costly? Is there 
anything out there that you think is being--that you think is 
out there and available but it is just not being used because 
some people think that maybe it is too costly?
    Mr. Rogers. I don't believe so. Hydraulic fracturing 
operation is very expensive and so they are not going to cut 
corners just to do that. It is very expensive and a very large 
investment to even drill that well. It can be millions of 
dollars so they are not going to cut corners on that end to 
possibly damage the environment. So I see them doing all they 
can.
    Right now, I think probably the most beneficial thing that 
industry could do is education and teaching people about 
hydraulic fracturing rather than the rhetoric we see out there 
and the fear that is passed on there. To actually understand 
what it is would be critical for people to know about because 
once you understand it, you realize the risk is not as severe 
as what you read about.
    Mr. Veasey. Are there any recommendations that have been 
made to you specifically that you can think of that maybe you 
don't agree with would help with the environmental concerns but 
the recommendations have been made perhaps by the environmental 
community?
    Mr. Rogers. The thing we did respond to was to have a 
disclosure role, which we responded to. That was a few years in 
the coming but we did that. So I think disclosure puts people's 
minds at ease. And to use fracfocus.org is an exceptional 
website that can give you a lot of education and you can 
actually look on and see what is being done in that particular 
well in your area and throughout the country.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman. I yield 
back my time.
    Chairman Stewart. Thank you, then. We turn now to the 
former Chair of the full Committee, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. [inaudible] differs from 
all those who have come before us from EPA. When Mr. 
Rohrabacher's last question to each one of them and it is of 
record, do you know of anywhere where it has damaged drinking 
water? Every one of them said no. Now, Mr. Rahm, you seem to 
know more than all the rest of them put together. Tell me where 
you are talking about.
    Dr. Rahm. I am sorry. What exactly is your question?
    Mr. Hall. Tell us where you know that there is evidence and 
actuality that drinking water has been damaged by fracking.
    Dr. Rahm. Actually, what I----
    Mr. Hall. What somebody has put in there----
    Dr. Rahm. Sorry.
    Mr. Hall. --to show it--that fracture itself--damaged the 
fracture itself.
    Dr. Rahm. So to the best of my knowledge I think it is 
important to make the distinction between gas drilling 
development and hydraulic fracturing. I have not really seen--I 
have seen evidence of spills and harmful events from gas 
development, gas oil development, but to my knowledge I have 
not seen data that implicates----
    Mr. Hall. What about the damage to the drinking water?
    Dr. Rahm. To my knowledge, I have not seen that hydraulic 
fracturing per se is the cause of that.
    Mr. Hall. That you have no knowledge of it, is that what 
you are telling me now?
    Dr. Rahm. That is according to what I have seen, yes.
    Mr. Hall. You are going to be one of the whole doggone 
bunch over there that was going to say that you did know of a 
place where they had damaged the drinking water.
    Dr. Rahm. No, I am trying to be very careful about----
    Mr. Hall. Please be careful.
    Dr. Rahm. --making the distinction.
    Mr. Hall. So far, you haven't told us anything but I don't 
know or I am glad you asked that question.
    Dr. Rahm. Try and make the distinction between shale gas 
development in general and hydraulic fracturing per se.
    Mr. Hall. That is your answer?
    Dr. Rahm. Yes, it is.
    Mr. Hall. Ask it again. Do you know of anywhere where 
hydraulic fracturing has damaged our drinking water? Yes or no?
    Dr. Rahm. As I said, no. Hydraulic fracturing per se I do 
not have any data that indicates that.
    Mr. Hall. And I thank you for that.
    Dr. Rahm. Sure.
    Mr. Hall. Based on all of the allegations and those that 
they have had to retract and I really think Mrs. Lummis, the 
other Chair, really were overly fair with you when they bragged 
on you there and then were so disappointed in your activity in 
her own area. And there has been some talk about you all have 
engaged in info--asking for--begging for information. Dr. 
Dzombak, you mentioned the high-quality panel that EPA has put 
together to peer review the study. You are aware of that, 
aren't you?
    Dr. Dzombak. Yes.
    Mr. Hall. All we know of states like Texas have decades of 
experience in oil and gas regulation. Other 31 panelists, how 
many experts from State regulatory agencies were chosen to be 
peer reviewers no matter where they were from?
    Dr. Dzombak. Let me say, Congressman, I wasn't involved 
with choosing the panel.
    Mr. Hall. I am not accusing you of that. I am just asking 
you my question.
    Dr. Dzombak. But I think we have none--no current state 
regulators but I am not positive of that.
    Mr. Hall. More than a dozen state environmental officials 
were nominated, including from the State of Texas, from the 
Texas Commission on Environmental Quality. Why were none of 
them chosen to provide their expertise to EPA on the study? Why 
didn't you select one of them?
    Dr. Dzombak. Well, I can't answer that because I wasn't 
involved in the selection.
    Mr. Hall. Another question you can't answer. All right.
    Dr. Dzombak. The Science Advisory Board staff office and 
management selects the committee. They solicit nominations 
through the Federal Register. Many, many nominations come in. 
They have a process that they go through, evaluation of ethics, 
impartiality, look at potential exemptions, but that is their 
process and I am not involved with it.
    Mr. Hall. Dr. Hauchman, let me ask you, why should we trust 
EPA's conduct in this study based on even the questions that 
some of the Democrats have asked?
    Dr. Hauchman. I--
    Mr. Hall. And let me tell you this. You are under oath and 
it is expected that you--whether you raise your right hand and 
say you are going to tell the truth, the whole truth, and 
nothing but the truth. And everybody before you has done that, 
but a lot of them have come before this Committee and 
misrepresented the facts on how scientifically they have made 
their selections. And that can be proved. But you go ahead and 
answer now what I asked you.
    Dr. Hauchman. I am pleased to respond to your question and 
I will state, as I have stated previously, that I am confident 
in the scientific integrity of the research that is being 
conducted. We have a very transparent, rigorous peer review 
process underway and----
    Mr. Hall. You are that but I asked you about us. Why should 
we trust EPA's conduct in this study because of your past 
record? Do you differ with those who have come here before us 
from EPA and testified under oath?
    Dr. Hauchman. I am only prepared to speak about the rigors 
of this particular study, and I sit before you confidently in 
saying that this is a solid study that we are conducting.
    Mr. Hall. Well, let me ask you this question. What has the 
EPA done to prevent repeating the mistakes made in Parker 
County, Texas; Pavillion, Wyoming; Dimock, Pennsylvania? What 
policy and what protocol changes and actions have been taken by 
the EPA to ensure sound science, if any? Or if you don't know 
or you tell us you are glad I asked that question or have some 
other answer for it, just answer me, please.
    Dr. Hauchman. We have put in place for this study all the 
appropriate policies, procedures, and protocols to ensure that 
the data that we generate, the analyses that we conduct, the 
methods that we use, and the models that we employ are 
appropriate and will produce quality results. We are relying on 
rigorous peer review. We are reaching out in many ways to 
experts from throughout the country. We are doing everything 
conceivably possible to ensure that this scientific study will 
stand on its own merits.
    Mr. Hall. All right. I will ask my last question for this 
particular hearing. If any of you can tell me where and when of 
your own knowledge or your own investigation or your own study 
that fracking has damaged drinking water? Can any of the four 
of you tell me and give me an answer and tell me date and times 
and where it was? Now, you mentioned, Mr. Rahm, that it does 
impact on water. You said like the others, though, I don't know 
when they ask you information about it when Mr. Rohrabacher 
asked you. Do you know of anywhere where you know of your own 
knowledge and your own studies that fracturing has damaged 
drinking water?
    Dr. Rahm. As I said, no.
    Mr. Hall. Yes or no? No?
    Dr. Rahm. As I said, no.
    Mr. Hall. All right.
    Chairman Stewart. And the gentleman's time is expired.
    Mr. Hall. And how about you? Could I let the other three 
answer yes or no?
    Chairman Stewart. Very quickly, please.
    Mr. Rogers. No, I don't.
    Dr. Dzombak. Nor I. I haven't been involved in such 
studies.
    Mr. Hall. All right. So what you don't know, then, if you 
haven't been involved. You don't know if you haven't been 
involved so you don't know. And do you know?
    Dr. Hauchman. I will restrict my response to the peer-
reviewed literature. We are aware of some very recent reports--
--
    Mr. Hall. Give me a yes-or-no answer. That is all I asked 
for. If it is yes, just give me yes.
    Dr. Hauchman. There have been some reports. We will be 
reviewing them.
    Mr. Hall. There have then some reports. Do you know of any 
place where there is damaged water?
    Dr. Hauchman. I have not reviewed those reports, those 
publications.
    Mr. Hall. So you don't know?
    Dr. Hauchman. At this particular time, no.
    Mr. Hall. I yield back. Thank you, Mr. Chairman.
    Chairman Stewart. All right. Thank you, Chairman Hall.
    I thank the witnesses for your valuable testimony and 
Members for their questions. And Members of this Committee may 
have additional questions for you and we will ask you to 
respond to those in writing. And the record will remain open 
for two weeks of additional comments and written questions from 
the Members.
    But before we close, there is a couple things that we need 
to do. Mr. Hauchman and Mr. Dzombak, I need your help and your 
commitment. I have a timeline here. We have asked multiple 
occasions for answers from charge questions from this 
Committee. To date, we have not gotten replies to those charge 
questions. There clearly has been enough time that there have 
been opportunity to answer those.
    In addition, we have asked at least twice a week to meet 
with the members of SAB or members of the Administration to try 
and understand why they won't answer these questions and have 
been told that they are too busy to meet with us. And I frankly 
don't understand that. If members of the SAB or members from 
the Agency are too busy to meet with Members of Congress who we 
are supposed to be working together on these studies, I think 
that that generates suspicion and ill will between us. And I 
think it is bad counsel whoever is counseling those members not 
to meet with us. And I need your commitment that you will go 
back to your agencies and to these individuals and press them 
and encourage them to answer our questions and to meet with us. 
Does that seem like a reasonable thing to ask? Yes? Yes, Mr. 
Dzombak?
    Dr. Dzombak. Chairman Stewart, I appreciate your concern 
and your May 2 letter was examined in great detail by the panel 
and by the SAB management. There are 13 specific queries in 
there. I think the SAB management responded and I contributed 
to the formulation of the response letter along with Dr. David 
Allen, Chairman of the chartered SAB on May 31. Several of 
those questions were more appropriately directed to the Office 
of Research and Development. We contacted--we--the SAB 
management contacted Office of Research and Development and 
that response letter provided three specific responses to three 
of the questions. On the other 10, as we outlined in that 
letter, those are all valid, pointed questions, and some of 
those were part of the discussion in the consultation on May 7 
and 8 and we will be happy and we plan to carry those questions 
forward for further discussion when the panel meets again in 
the fall.
    Chairman Stewart. Okay. So----
    Dr. Dzombak. And I can assure--excuse me. I can assure you, 
Chairman Stewart, that I have been engaged with the SAB 
management on that and we are giving it all due deference and 
specific attention.
    Chairman Stewart. All right. So thank you. So you are 
saying we won't have answers to those questions until the panel 
meets again this fall?
    Dr. Dzombak. Well, several of the questions, I am saying, 
were responded to specifically----
    Chairman Stewart. Right.
    Dr. Dzombak. --in the May 31 response and the other 10 
specific technical questions we will be engaging with this 
fall.
    Chairman Stewart. Okay. We look forward to that and thank 
you. I ask unanimous consent then to enter into the record the 
following two items: a letter from Ranger Resources to the 
Committee regarding the EPA's investigations of groundwater 
claims in Parker, Texas; and second, a letter I sent to the 
Chairs of the EPA Science Advisory Board and Science Advisory 
Board's Hydraulic Fracturing Research Advisory Panel regarding 
the SAB review of the EPA's study of potential impacts of 
hydraulic fracturing on drinking water resources. And without 
objection, so ordered.
    [The information follows appears in appendix II]
    Chairman Stewart. And finally, before we close, I wanted to 
take a moment to acknowledge the work of Ellen Scholl to my 
left for her outstanding contributions to the Energy and the 
Environment Subcommittees over the last two years. Ms. Scholl 
is--this will be your last hearing. In August she is going to 
be returning to Texas where she will be pursuing her graduate 
work at the LBJ school of Public Policy. Ellen, we thank you 
for your great work, for your contributions, and you will be 
missed. Thank you.
    With that then, if no further business, the witnesses are 
excused and this hearing is adjourned. Thank you.
    [Whereupon, at 12:05 p.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Fred Hauchman

[GRAPHIC] [TIFF OMITTED] T2221.048

[GRAPHIC] [TIFF OMITTED] T2221.049

[GRAPHIC] [TIFF OMITTED] T2221.050

[GRAPHIC] [TIFF OMITTED] T2221.051

[GRAPHIC] [TIFF OMITTED] T2221.052

Responses by Dr. David A. Dzombak

[GRAPHIC] [TIFF OMITTED] T2221.055

[GRAPHIC] [TIFF OMITTED] T2221.056

[GRAPHIC] [TIFF OMITTED] T2221.057

[GRAPHIC] [TIFF OMITTED] T2221.058

[GRAPHIC] [TIFF OMITTED] T2221.059

[GRAPHIC] [TIFF OMITTED] T2221.060

Responses by Mr. John Rogers

[GRAPHIC] [TIFF OMITTED] T2221.061

[GRAPHIC] [TIFF OMITTED] T2221.062

Responses by Dr. Brian Rahm

[GRAPHIC] [TIFF OMITTED] T2221.063

[GRAPHIC] [TIFF OMITTED] T2221.064

                              Appendix II

                              ----------                              


                   Additional Material for the Record


                 Submitted by the Committee's Majority

[GRAPHIC] [TIFF OMITTED] T2221.071

[GRAPHIC] [TIFF OMITTED] T2221.072

[GRAPHIC] [TIFF OMITTED] T2221.073

[GRAPHIC] [TIFF OMITTED] T2221.074

[GRAPHIC] [TIFF OMITTED] T2221.075

[GRAPHIC] [TIFF OMITTED] T2221.076

[GRAPHIC] [TIFF OMITTED] T2221.077

[GRAPHIC] [TIFF OMITTED] T2221.078

[GRAPHIC] [TIFF OMITTED] T2221.079

[GRAPHIC] [TIFF OMITTED] T2221.080

[GRAPHIC] [TIFF OMITTED] T2221.081

[GRAPHIC] [TIFF OMITTED] T2221.082

[GRAPHIC] [TIFF OMITTED] T2221.083

[GRAPHIC] [TIFF OMITTED] T2221.084

[GRAPHIC] [TIFF OMITTED] T2221.085

[GRAPHIC] [TIFF OMITTED] T2221.086

[GRAPHIC] [TIFF OMITTED] T2221.087

[GRAPHIC] [TIFF OMITTED] T2221.088

[GRAPHIC] [TIFF OMITTED] T2221.089

[GRAPHIC] [TIFF OMITTED] T2221.090

[GRAPHIC] [TIFF OMITTED] T2221.091

 Submitted by Representative Chris Stewart, Chairman, Subcommittee on 
                              Environment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Submitted by Representative Chris Stewart, Chairman, Subcommittee on 
                              Environment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
